<html>
<title> - WESTERN HEMISPHERE DRUG INTERDICTIONS: WHY MAINTAINING COAST GUARD OPERATIONS MATTERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


  WESTERN HEMISPHERE DRUG INTERDICTIONS: WHY MAINTAINING COAST GUARD 
                           OPERATIONS MATTER

=======================================================================

                                (116-19)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 4, 2019
                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
    
    Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
39-475 PDF                 WASHINGTON : 2020                              
                             



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair
ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland             Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
    Georgia                          JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
    Chair                            BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                 SEAN PATRICK MALONEY, New York, Chair
ELIJAH E. CUMMINGS, Maryland         BOB GIBBS, Ohio
RICK LARSEN, Washington              DON YOUNG, Alaska
STACEY E. PLASKETT, Virgin Islands   RANDY K. WEBER, Sr., Texas
JOHN GARAMENDI, California           BRIAN J. MAST, Florida
ALAN S. LOWENTHAL, California        MIKE GALLAGHER, Wisconsin
ANTHONY G. BROWN, Maryland           CAROL D. MILLER, West Virginia
CHRIS PAPPAS, New Hampshire, Vice    SAM GRAVES, Missouri (Ex Officio)
    Chair
PETER A. DeFAZIO, Oregon (Ex 
    Officio)


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Sean Patrick Maloney, a Representative in Congress from the 
  State of New York, and Chair, Subcommittee on Coast Guard and 
  Maritime Transportation:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Bob Gibbs, a Representative in Congress from the State of 
  Ohio, and Ranking Member, Subcommittee on Coast Guard and 
  Maritime Transportation:

    Opening statement............................................     3
    Prepared statement...........................................     3
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     4
    Prepared statement...........................................     5
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    47

                               WITNESSES

Vice Admiral Daniel B. Abel, Deputy Commandant for Operations, 
  U.S. Coast Guard:

    Oral statement...............................................     6
    Prepared statement...........................................     7
Rear Admiral Steven D. Poulin, Director of Operations, U.S. 
  Southern Command

    Oral statement...............................................    11
    Prepared statement \1\.......................................    13
Thomas W. Padden, U.S. Interdiction Coordinator, Office of 
  National Drug Control Policy

    Oral statement...............................................    21
    Prepared statement...........................................    23

                       SUBMISSIONS FOR THE RECORD

U.S. Southern Command Graphics Illustrating Growth and Influence 
  of China and Russia in Western Hemisphere, Submitted for the 
  Record by Hon. Maloney.........................................    47

                                APPENDIX

Questions from Hon. Sean Patrick Maloney for Vice Admiral Daniel 
  B. Abel, Deputy Commandant for Operations, U.S. Coast Guard....    51
Questions from Hon. Bob Gibbs for Vice Admiral Daniel B. Abel, 
  Deputy Commandant for Operations, U.S. Coast Guard.............    51
Questions from Hon. Randy K. Weber, Sr., for Rear Admiral Steven 
  D. Poulin, Director of Operations, U.S. Southern Command.......    53
Questions from Hon. John Garamendi for Thomas W. Padden, U.S. 
  Interdiction Coordinator, Office of National Drug Control 
  Policy.........................................................    53

----------
\1\ Rear Admiral Poulin submitted the prepared statement of Admiral 
Craig S. Faller, Commander, U.S. Southern Command, as the statement for 
the U.S. Southern Command.
Questions from Hon. Randy K. Weber, Sr., for Thomas W. Padden, 
  U.S. Interdiction Coordinator, Office of National Drug Control 
  Policy.........................................................    54

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              May 30, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Coast Guard and Maritime 
Transportation
    FROM:   Staff, Subcommittee on Coast Guard and Maritime 
Transportation
    RE:       Hearing on ``Western Hemisphere Drug 
Interdictions: Why Maintaining Coast Guard Operations Matter''

                                PURPOSE

    The Subcommittee on Coast Guard and Maritime Transportation 
will meet on Tuesday, June 4, 2019, at 10:00 a.m. in 2167 
Rayburn House Office Building to examine the federal 
government's efforts to confront transnational drug smuggling 
and stem the flow of illegal drugs to the United States. The 
Subcommittee will hear from the United States Coast Guard 
(Coast Guard or Service), United States Southern Command 
(SOUTHCOM), and the Office of National Drug Control Policy.

                               BACKGROUND

    Illegal drug trafficking continues to threaten the safety, 
security, and public health of U.S. citizens and destabilize 
foreign governments. Such trafficking places significant strain 
on our Nation's health care and criminal justice systems, 
costing U.S. taxpayers hundreds of billions of dollars 
annually. The ability to intercept these drugs before they 
enter the U.S. enables agencies responsible for interdiction, 
like the Coast Guard, to leverage assets and seize drugs in 
bulk before they are broken into smaller packages inside the 
United States. Such seizures use drug law enforcement assets 
much more efficiently than trying to pursue smaller, less pure 
drugs closer to the end user.
    In an effort to combat the adverse impacts of drugs and 
coordinate the federal government's drug control activities, 
Congress established the Office of National Drug Control Policy 
(ONDCP) as part of the Anti-Drug Abuse Act of 1988 (P.L. 100-
690). Section 1705 of title 21, United States Code, requires 
the ONDCP to submit to Congress a National Drug Control 
Strategy (NDCS) on an annual basis. The latest NDCS, released 
in May 2019, focuses on reducing the use, production, and 
trafficking of illegal drugs, as well as lessening drug-related 
crime, violence, and health consequences.

INTERDICTION ACTIVITIES

    The majority of illegal drugs entering the United States 
originate in South America. The Coast Guard primarily 
confiscates cocaine, marijuana and methamphetamine with cocaine 
being the most commonly confiscated substance.\1\ Other drugs 
such as Opiates, Fentanyl and similar substances that are 
smuggled into the country move primarily on land, air, or by 
commercial maritime conveyances whose cargos are regulated by 
Customs and Border Protection (CBP).\2\ According to the Drug 
Enforcement Administration, Colombia is the source of 93% of 
the cocaine in the United States.\3\ The drugs pass through a 
seven million square-mile area called the Transit Zone. Roughly 
twice the size of the continental United States, the Transit 
Zone includes the Caribbean Sea, the Gulf of Mexico, and the 
Eastern Pacific Ocean.
---------------------------------------------------------------------------
    \1\ U.S. Coast Guard, Annual Performance Report: Fiscal Year 2017. 
https://www.uscg.mil/Portals/0/documents/budget/
FY17%20APR%2015%20May%2018%20-%20Final%20-%20POSTED.pdf
    \2\ Ibid. Page 14, paragraph 4.
    \3\ See page 41 https://www.dea.gov/sites/default/files/2018-11/
DIR-032-18%2020
18%20NDTA%20%5Bfinal%5D%20low%20resolution11-20.pdf
---------------------------------------------------------------------------
    Typically, in the Eastern Pacific Ocean, fishing vessels 
carrying multi-ton loads of cocaine depart Colombian and 
Ecuadorian ports for delivery points along the Central American 
or Mexican coasts. In the Caribbean, high-speed ``go-fast'' 
vessels haul as much as two metric tons of cocaine at a time. 
These vessels generally leave Colombia's north coast heading 
for points along the Central American and Mexican coastlines, 
or leave Venezuela's north coast to island nations such as the 
Dominican Republic, Haiti, Jamaica, and the Lesser Antilles. 
Smugglers have also turned to semi- and fully-submersible 
vessels to move large shipments of cocaine from South America 
to distribution points in Central America. These vessels are 
effective tools to move large quantities of illegal drugs and 
other illicit goods because their low profile makes them 
difficult to detect.
    Once the drugs land in Central American nations, they are 
broken down into multiple smaller packages for transshipment to 
the United States. Mexican drug cartels have recently been 
using panga boats (e.g., small, open-air, outboard-powered 
fishing boats) to move drugs into the United States. While 
illegal drugs can enter the United States through the southern 
land border, a majority of those drugs are transported at some 
point via boats. Consequently, the NDCS focuses on interdicting 
bulk shipments of drugs in the Transit Zone prior to reaching 
the United States.

       FIGURE 1. FISCAL YEAR 2017 DRUG SEIZURES AND MOVEMENT \4\
---------------------------------------------------------------------------

    \4\ See page 51 of https://www.dea.gov/sites/default/files/2018-11/
DIR-032-18%202018%20NDTA
%20%5Bfinal%5D%20low%20resolution11-20.pdf.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

           FIGURE 2. COCAINE PRODUCTION ESTIMATES IN COLOMBIA
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


AGENCY ROLES AND RESPONSIBILITIES

    The National Defense Authorization Act for fiscal years 
1990 and 1991 (P.L. 101-189) designated the Department of 
Defense (DoD) as the lead agency for the detection and 
monitoring of aerial and maritime trafficking of illegal drugs 
into the United States. The U.S. Coast Guard is designated as 
the lead agency for the interdiction and apprehension of 
illegal drug traffickers on the high seas.
    Detection and monitoring activities in the Transit Zone are 
coordinated by the Joint Inter-Agency Task Force South (JIATF-
South). A subordinate command of SOUTHCOM, JIATF-South is led 
by a Coast Guard Rear Admiral (currently RADM Pat DeQuattro) 
and composed of representatives from DoD and other departments 
of the federal government, including the Departments of 
Homeland Security (DHS), Justice, and State. Canada, the United 
Kingdom, France, the Netherlands, and Spain provide ships, 
aircraft, and liaison officers to JIATF-South. A number of 
Central and South American countries also have assigned liaison 
officers to JIATF-South. To provide JIATF-South and the Coast 
Guard with the ability to conduct its mission effectively, the 
State Department has negotiated maritime counterdrug bilateral 
agreements or operational procedures with 43 foreign nations to 
coordinate detection, monitoring, interdiction, and 
apprehension activities.
    The interdiction continuum (Figure 3) depicts how joint 
interdiction operations have been used to reduce the supply of 
cocaine to the United States. A typical operation begins with 
the collection of actionable intelligence on drug trafficking 
activities. This is used to help cue or tip the operational 
unit to narrow its patrol area and decrease response time. 
Next, CBP, Coast Guard, DoD, or allied nation Maritime Patrol 
Aircraft (MPA) are launched to detect drug smuggling 
activities, sort through potential targets, and monitor the 
suspect vessel(s). The MPA will then contact a nearby Coast 
Guard, Navy, or allied nation's surface asset (e.g., a cutter, 
frigate, etc.) and hand-off the vessel. The surface asset will 
launch a small boat or an armed Coast Guard helicopter manned 
with Coast Guard Law Enforcement Detachment (LEDET) personnel 
to disable the vessel. The vessel is then interdicted, the 
drugs are seized, and the crew is apprehended. Final 
disposition of the vessel, drugs, and crew is coordinated 
between the U.S. State and Justice Departments and the flag 
state of the vessel who handles the prosecution.

                  FIGURE 3. THE INTERDICTION CONTINUUM

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Operation Martillo (Hammer) is the name of the current 
JIATF-South counter-drug operation which brings together 14 
countries to disrupt drug smuggling in the Transit Zone, 
including Belize, Canada, Colombia, Costa Rica, El Salvador, 
France, Guatemala, Honduras, the Netherlands, Nicaragua, 
Panama, Spain, United Kingdom and the United States. Chile has 
also assisted Operation Martillo. Since its launch on January 
15, 2012, Operation Martillo has supported the seizure of 693 
metric tons of cocaine, $25 million in bulk cash, 581 vessels 
and aircraft detained and the arrest of 1,863 detainees.\5\
---------------------------------------------------------------------------
    \5\ See https://www.southcom.mil/Media/Special-Coverage/Operation-
Martillo.
---------------------------------------------------------------------------

GOALS AND PERFORMANCE

    In the 2019 NDCS released in May, ONDCP calls for a 
significant reduction in the availability of illicit drugs in 
the U.S. with a goal of increasing the amount of cocaine 
removals (in metric tons) in the transit zone by 10 percent 
within 5 years.\6\ In his May 1, 2019, testimony to the U.S. 
House Committee on Armed Services, SOUTHCOM Commander Admiral 
Craig Faller stated that last year JIATF-South was only able to 
disrupt about 6% of known drug movements.\7\ He also stated 
that ``doing more would require additional ships and maritime 
patrol aircraft and greater participation by interagency and 
international partners . . .'' \8\ While the Coast Guard may 
have resources to interdict up to 20-30% of drugs flowing 
through the Transit Zone, the U.S. Government Accountability 
Office (GAO) noted that for the period of FY 2009-FY 2013, the 
Coast Guard deployed cutters (used for drug interdiction) for 
fewer days than planned and that maritime patrol aircraft hours 
were below target levels. These factors likely contributed to 
the lower actual percentage of cocaine removed.\9\ In addition 
to the nearly 224 metric tons of cocaine removed in FY 2017, 
the Coast Guard also removed 31,190 pounds of marijuana, 6 
kilograms of heroin and other opiates, and 168 kilograms of 
methamphetamines. Estimates of cocaine moving through the 
Transit Zone toward the United States come from the 
Consolidated Counter Drug Database (CCDB).\10\
---------------------------------------------------------------------------
    \6\ See https://www.whitehouse.gov/wp-content/uploads/2019/05/
ONDCP_PRS.pdf.
    \7\ See https://www.southcom.mil/Portals/7/Documents/
Posture%20Statements/SOUTHCOM_
2019_Posture_Statement_HASC_Final.pdf?ver=2019-05-01-095639-453.
    \8\ Ibid.
    \9\ Christopher Woody, ``Billions of Dollars of Cocaine are 
Smuggled into the US by Sea Every Year, and the Coast Guard Says It Can 
Only Stop One-Quarter of It,'' Business Insider, November 19, 2018; 
also remarks by Admiral Paul F. Zukunft, Commandant of the Coast Guard, 
at Center for Strategic & International Studies, ``A Cooperative 
Strategy for 21st Century Seapower: Forward, Engaged, Ready,'' March 
13, 2015. U.S. Government Accountability Office, Coast Guard: Resources 
Provided for Drug Interdiction Operations in the Transit Zone, Puerto 
Rico, and the U.S. Virgin Islands, GAO-14-527, June 2014.
    \10\ U.S. Coast Guard, Annual Performance Report: Fiscal Year 2017. 
https://www.uscg.mil/Portals/0/documents/budget/
FY17%20APR%2015%20May%2018%20-%20Final%20-%20POSTED.pdf.
---------------------------------------------------------------------------
    Since FY 2009, the Coast Guard has set its own internal 
annual performance target for cocaine removal from 
noncommercial vessels in the Transit Zone. The annual target 
varies from year to year based on the Coast Guard's own review 
of intelligence, logistics, policy, capability, emerging 
trends, and past performance. The Service has achieved its 
performance target only once since FY 2009. For FY 2018, the 
Coast Guard set its annual performance target for cocaine 
removal at 10.0%. This is the lowest the Coast Guard has set 
its performance target since FY 2010 and has remained as the 
target for FY 2019 and FY 2020. The lowered target rate could 
be due to an increase in the flow of cocaine or the enhanced 
awareness of the quantity of cocaine flowing thru the Transit 
Zone; as the flow of cocaine increases, the Coast Guard 
interdiction rate can decrease since tonnage increased over 
time.

TABLE 1. COAST GUARD PERFORMANCE TARGET AND RESULTS FOR COCAINE REMOVAL 
       IN RELATION TO NON-COMMERCIAL MARITIME MOVEMENT OF COCAINE

--------------------------------------------------------------------------------------------------------------------------------------------------------
              Year                      FY 2015             FY 2016             FY 2017             FY 2018             FY 2019             FY 2020
--------------------------------------------------------------------------------------------------------------------------------------------------------
Target..........................  13.8%.............  11.5%.............  11.5%.............  10.0%.............  10.0%.............  10.0%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Actual..........................  11.5%.............  7.1%..............  8.2%..............  7.4%..............  TBD...............  TBD
--------------------------------------------------------------------------------------------------------------------------------------------------------

TABLE 2. NON-COMMERCIAL MARITIME COCOAINE FLOW AND TONNAGE REMOVED (IN 
                           METRIC TONS) \11\
---------------------------------------------------------------------------

    \11\ See https://www.oig.dhs.gov/sites/default/files/assets/2019-
03/OIG-19-27-Mar19.pdf.

--------------------------------------------------------------------------------------------------------------------------------------------------------
              Year                      FY 2013             FY 2014             FY 2015             FY 2016             FY 2017             FY 2018
--------------------------------------------------------------------------------------------------------------------------------------------------------
Flow............................  577...............  945...............  1,254.............  2,834.............  2,738.............  2,827.3
--------------------------------------------------------------------------------------------------------------------------------------------------------
Removed.........................  88.4..............  90................  144.8.............  201.3.............  223.8.............  209.6
--------------------------------------------------------------------------------------------------------------------------------------------------------

    The Coast Guard has committed to increasing capabilities in 
the Transit Zone. Their FY 2020 Congressional Budget 
Justification proposed the expansion of Counter Transnational 
Criminal Organizations Initiatives requesting funding for 48 
positions, 26 FTE, at a cost of $6.5M, to expand the Coast 
Guard's capacity to execute a multi-layered approach in the 
Western Hemisphere maritime transit zone, and dismantle 
TCOs.\12\ Currently, Coast Guard personnel are posted as 
attaches, liaisons and drug interdiction specialists at several 
U.S. embassies in the Western Hemisphere.
---------------------------------------------------------------------------
    \12\ See page USCG-O&S-24. https://www.uscg.mil/Portals/0/
documents/budget/FY_2020_
CJ_Combined_Chapters_FINAL.pdf.
---------------------------------------------------------------------------

FACTORS IMPACTING PERFORMANCE

    Several factors impact the ability of JIATF-South and the 
Coast Guard to meet drug interdiction performance targets, 
including continuously changing modes, tactics, and routes by 
drug smugglers; the inability of allied nations to consistently 
commit assets; and the availability, quality, and timeliness of 
actionable intelligence. However, according to the leaders of 
the Coast Guard and SOUTHCOM, the largest factor in the recent 
decline and ongoing inability to meet drug interdiction 
performance targets has been the insufficient inventory of 
vessels and aircraft available to support operations.
    The Coast Guard is a multi-mission branch of the military 
where many of their assets oversee multiple missions. In 
September 2013, the DHS Inspector General (IG) reported that 
the primary cause of the failure of the Service to meet its FY 
2012 drug interdiction performance target was due to decreased 
asset availability from aging and deteriorating assets (OIG 13-
122). The DHS IG again reported that the Coast Guard failed to 
meet its drug removal rate in FY 2014 (OIG 15-27). In a June 
2014 report to Congress entitled ``Coast Guard: Resources 
Provided for Drug Interdiction Operations in the Transit Zone, 
Puerto Rico, and the U.S. Virgin Islands'' (GAO 14-527), GAO 
reiterated the Coast Guard's challenge in maintaining and 
operating legacy cutters and cited concerns in the timely 
replacement of these vessels. Despite years of Congressional 
questioning, the Service is only now undertaking work to extend 
the useful life of 270 foot Medium Endurance Cutters.
    The Coast Guard's program of record (POR) calls for 
procuring 8 National Security Cutters (NSCs), 25 Offshore 
Patrol Cutters (OPCs), and 58 Fast Response Cutters (FRCs) as 
replacements for 90 aging Coast Guard high-endurance cutters, 
medium-endurance cutters, and patrol craft. While the 
procurement of these 91 cutters will replace the aging fleet, 
Coast Guard studies have concluded that they would only provide 
61% of the cutters needed to fully perform the service's 
statutory missions in the coming years.\13\ Congress has funded 
11 NSCs; 7 of which are now in service with 3 more under 
construction. Funding and contracts have been awarded for 2 
OPCs while procurement funding for additional OPCs was included 
in the Coast Guard FY 2020 budget request. At the end of May, a 
report is due to the Coast Guard from the contract building the 
OPC's detailing whether the contractor can meet the terms of 
the contract. 56 FRCs have been funded through FY 2019.
---------------------------------------------------------------------------
    \13\ R. O'Rourke. CRS R42567 Coast Guard Cutter Procurement: 
Background and Issues for Congress.
---------------------------------------------------------------------------

UNMANNED SYSTEMS

    In addition, the Coast Guard Research and Development 
Center has agreements with certain private companies to help 
evaluate the use of small unmanned aircraft systems for a 
variety of missions, including law enforcement. They are 
actively looking into the use of unmanned aerial systems for 
counter-drug and smuggling surveillance operations as it 
expands maritime domain awareness.\14\ The Coast Guard has used 
the ScanEagle--an unmanned aircraft manufactured by Insitu 
Inc.\15\--to help detect illicit drug smuggling. Unmanned 
aircraft have been used on the National Security Cutter (NSC) 
Stratton, where they have ``provided real-time imagery of 
suspected smuggling vessels, which helped minimize safety 
concerns for interdiction assets and allowed the Stratton crew 
to better track jettisoned material.'' \16\ While Coast Guard 
officials have noted successes in having this system aboard an 
NSC to aid in drug interdiction, they have noted challenges in 
acquiring other unmanned aircraft systems.\17\
---------------------------------------------------------------------------
    \14\ Sean T. Pribyl, ``Drones: Is the Maritime Industry Ready?,'' 
MarineLink, July 27, 2016.
    \15\ https://www.boeing.com/defense/autonomous-systems/scaneagle/
index.page.
    \16\ U.S. Coast Guard, Acquisition Directorate, Small Unmanned 
Aircraft System Assists National Security Cutter Drug Interdictions, 
January 29, 2018.
    \17\ U.S. Coast Guard, Acquisition Directorate, Unmanned Aircraft 
System, https://www.dcms.uscg.mil/Our-Organization/Assistant-
Commandant-for-Acquisitions-CG-9/Programs/Air-Programs/UAS/.
---------------------------------------------------------------------------

                              WITNESS LIST

    <bullet>  Vice Admiral Daniel B. Abel, Deputy Commandant 
for Operations, United States Coast Guard
    <bullet>  Rear Admiral Steven D. Poulin, Director of 
Operations, United States Southern Command
    <bullet>  Mr. Thomas W. Padden, United States Interdiction 
Coordinator, Office of National Drug Control Policy

 
  WESTERN HEMISPHERE DRUG INTERDICTIONS: WHY MAINTAINING COAST GUARD 
                           OPERATIONS MATTERS

                              ----------                              


                         TUESDAY, JUNE 4, 2019

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 2167, Rayburn House Office Building, Hon. Sean Patrick 
Maloney (Chairman of the subcommittee) presiding.
    Mr. Maloney. The committee will come to order. I will start 
by asking unanimous consent that members not on the 
subcommittee be able to participate for the purpose of today's 
hearing.
    Without objection, so ordered.
    Welcome to this morning's hearing. Today we are here to 
learn more about the Coast Guard's 11 statutory missions, with 
a focus on drug interdiction in the Western Hemisphere, what we 
call the transit zone.
    Every day members of our Coast Guard coordinate and execute 
this critical mission to stem the flow of illicit drugs into 
the United States. Through partnerships with other Federal 
agencies and international allies, our Coasties intercept drug 
cartel operations, interdicting more cocaine than all other 
Federal agencies combined. Notwithstanding its performance, the 
Coast Guard remains underresourced, and is asked to do more 
with less. And regrettably, their work in drug interdiction is 
no exception.
    For example, the Service's aged fleet of legacy cutters can 
only muster an interdiction rate of roughly 6 percent of known 
illegal drug movements. If the Coast Guard had a recapitalized 
fleet of new offshore cutters on hand, however, they could 
interdict 20 to 30 percent of known drug movement in the 
transit zone. So unless we are happy to sustain this inadequate 
interdiction rate, it remains imperative that this committee 
and Congress continue to support funding increases to 
recapitalize Coast Guard fleets of surface and air assets.
    If anything, our hearing last month on the Coast Guard's 
budget request and acquisition activities further corroborates 
my belief that the Coast Guard is going to be extremely hard-
pressed to maintain its existing capabilities, much less 
increase its operational readiness to police a transit zone 
that is twice the size of the continental United States.
    We might ask how can we reasonably expect the Coast Guard 
and other Federal agencies, for that matter, to accomplish 
their vital missions in this context. How can we demand the 
only military service left unpaid during the recent Government 
shutdown to be asked once again to do more with less?
    If we want to succeed in our efforts to prevent illegal 
drugs from entering our country, we can no longer ignore the 
fact inadequate Coast Guard budgets have left the Service with 
crumbling shoreside infrastructure, aged or obsolete surface 
assets, and other glaring operational needs. Until we have 
resolved this issue, we are far more likely to see more illicit 
drugs and other harmful contraband crossing our shores, not 
less: a truly ironic outcome that would be devastating to both 
the Coast Guard and to the country.
    [Mr. Maloney's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Sean Patrick Maloney, a Representative in 
 Congress from the State of New York, and Chair, Subcommittee on Coast 
                   Guard and Maritime Transportation
    Welcome to this morning's hearing. Today, we're here to learn more 
about one of the Coast Guard's eleven statutory missions, drug 
interdiction in the Western Hemisphere Transit Zone.
    Every day, members of our Coast Guard coordinate and execute this 
critical mission to stem the flow of illicit drugs into the Unites 
States. Through partnerships with other federal agencies and 
international allies, our Coasties interrupt and intercept drug cartel 
operations, interdicting more cocaine than all other federal agencies 
combined.
    Notwithstanding its performance, the Coast Guard remains under-
resourced and is asked to do more with less, and regrettably, their 
work in drug interdiction is no different.
    For example, the Service's aged fleet of legacy cutters can only 
muster an interdiction rate of roughly 6 percent of known illegal drug 
movements (due to unexpected maintenance). If the Coast Guard had a 
recapitalized fleet of new offshore cutters on-hand, however, they 
could interdict 20 percent to 30 percent of known drug movement in the 
Transit Zone.
    Unless we are happy to sustain this mediocre interdiction rate, it 
remains imperative that this committee and the Congress continue to 
support funding increases to recapitalize Coast Guard fleets of surface 
and air assets.
    If anything, our hearing last month on the Coast Guard's budget 
request and acquisition activities further corroborates my belief that 
the Coast Guard is going to be extremely hard pressed to maintain its 
existing capabilities, much less increase their operational readiness 
to police a transit zone that is twice the size of the continental 
United States.
    Moreover, while the sheer size of the Transit Zone is a daunting 
enough challenge, the Department of Homeland Security continues to 
disproportionately reallocate and siphon resources from the Coast Guard 
and other agencies to reinforce operations at the Southern Border.
    In the face of data demonstrating that the maritime environment is 
increasingly the preferred route for Transnational Criminal 
Organizations to operate, it makes absolutely no sense for the 
Administration to divert critical resources from an already 
overburdened Coast Guard in the face of a genuine, documented threat to 
the security and safety of the American people.
    We might ask: How can we reasonably expect the Coast Guard and 
other Federal agencies, for that matter, to accomplish their vital 
missions in this context? How can we demand the only military service 
left unpaid during the recent government shutdown, to be asked, once 
again, to do more with less?
    If we want to succeed in our efforts to prevent illegal drugs from 
entering our country, we can no longer ignore the fact: inadequate 
Coast Guard budgets have left the Service out to dry with crumbling 
shoreside infrastructure, aged or obsolete surface and air assets, and 
other glaring operational needs.
    Until we have resolved the issue of this reality in full, we are 
far more likely to see more illicit drugs and other harmful contraband 
crossing our shores, not less--a truly ironic outcome that would be 
devastating to both the Coast Guard and to our country.

    Mr. Maloney. Now I would like to recognize Mr. Gibbs, the 
ranking member of the subcommittee, for any opening remarks.
    Mr. Gibbs. Thank you. Thank you, Chairman, and I also want 
to thank our witnesses for being here today, and for their 
service to our country.
    The United States Coast Guard carries out a broad array of 
law enforcement, including drug interdiction in U.S. waters and 
on high seas. The Service works as part of the Joint 
Interagency Task Force South to remove drugs from the transit 
zone. Removing drugs in the transit zone closest to the source 
in their purest form not only keeps those drugs off the streets 
and out of our schoolyards in the United States, but also makes 
much more efficient use of law enforcement assets. Capturing 
bulk shipments of cocaine in this manner takes less time and 
effort than following smaller packages of less pure product 
being moved to users.
    Looking at the falling targets for cocaine removal and the 
consistent failure to meet even those falling targets, I want 
to hear from the Coast Guard how the falling targets relate to 
the surface fleet recapitalization and the failure to implement 
the intended communication goals originally set out for the 
Service's new assets.
    I am particularly concerned to know why, despite a decade 
of congressional questioning, the Coast Guard has still failed 
to undertake a ship life extension program for its workhorse 
Medium Endurance Cutters, especially given potential further 
delays in the construction of the new Offshore Patrol Cutters.
    In addition to Coast Guard assets, I also look forward to 
learning what other agencies can contribute to and participate 
in the transit zone drug interdiction efforts.
    Mr. Chairman, I look forward to the hearing today and 
hearing the witnesses' testimony, and I yield back.
    [Mr. Gibbs's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Bob Gibbs, a Representative in Congress from 
the State of Ohio, and Ranking Member, Subcommittee on Coast Guard and 
                        Maritime Transportation
    The United States Coast Guard carries out a broad array of law 
enforcement, including drug interdiction in U.S. waters and on the high 
seas.
    The Service works as part of the Joint Interagency Task Force South 
to remove drugs from the Transit Zone. Removing drugs in the Transit 
Zone, closest to the source and in their purest form, not only keeps 
those drugs off the streets and out of schoolyards in the United 
States, but also makes much more efficient use of law enforcement 
assets. Capturing bulk shipments of cocaine in this manner takes less 
time and effort than following smaller packages of less-pure product 
being moved to users.
    Looking at the falling targets for cocaine removal, and the 
consistent failure to meet even those falling targets, I want to hear 
from the Coast Guard how the falling targets relate to surface fleet 
recapitalization, and the failure to implement the intended 
communication goals originally set out for the Service's new assets.
    I am particularly concerned to know why, despite a decade of 
Congressional questioning, the Coast Guard has still failed to 
undertake a ship life extension program for its workhorse Medium 
Endurance Cutters, especially given potential further delays in the 
construction of the new Offshore Patrol Cutters.
    In addition to Coast Guard assets, I also look forward to learning 
what other agencies can contribute to and participate in Transit Zone 
drug interdiction efforts.

    Mr. Maloney. I thank the gentleman. I would like to 
recognize the full committee chairman, Mr. DeFazio.
    Before doing so I just want to acknowledge someone I failed 
to mention. I am honored to be accompanied today by a foster 
youth shadow. If you see a number of young people following 
Members of Congress around today, it is the day when we welcome 
young people from the foster care system who have gone on to do 
extraordinary things to accompany us in our daily routine. I am 
joined by Raven Profit, here behind me, from the great State of 
New York. And she has already brightened my day and reminded me 
of why we do this important work.
    Mr. Chairman, without further delay.
    Mr. DeFazio. Great. It sounds like a great program, and 
hopefully it will be an interesting day for her to shadow.
    Thank you, Mr. Chairman, I appreciate you scheduling this 
hearing, because we need to continue to emphasize the critical 
role the Coast Guard is playing.
    I have here a poster. [Poster is displayed.] This is a 
number of Coast Guard personnel assembled in front of one of 
our aging helicopters. But you see in front of them an 
extraordinary display of intercepted drugs. Thanks, that is 
great [indicating poster can be removed].
    And, you know, there is a lot of talk about drug smuggling 
on the southern border, building a wall, and all sorts of other 
ineffective measures, yet we have testimony from the former 
Commandant of the Coast Guard before the Senate about 2 years 
ago that we have actionable intelligence on a large number of 
drug shipments coming in in semi-submersibles, fast boats, 
being smuggled aboard fishing boats and other vessels, in the 
extraordinary area that the Coast Guard has to observe and 
patrol.
    The Western Hemisphere transit zone is twice as big as the 
continent of the United States, a heck of a lot bigger, 
obviously, than the border. And we are only intercepting 20 
percent of the known shipments, because of a lack of assets 
personnel. Airborne assets and/or better and new cutters, 
Medium Endurance Cutters, and others.
    For too long the Coast Guard has been making do, and it is 
time that we moved ahead with the acquisition of new assets for 
the Coast Guard, since they intercepted more drugs than every 
other agency of the Federal Government, combined. And 
investment in assets for the Coast Guard, both personnel and 
equipment, would be a heck of a lot better than a static wall 
that people can go around, under, or through--not also to 
mention that on the land border most drugs are coming in 
through our ports of entry.
    According to testimony in ``El Chapo'' Guzman's trial in 
New York, the preferred method is to come through legal points 
of entry in converted semi-tractor trailers, pickup trucks, and 
other things. If they lose a semi-trailer or pickup truck, so 
what? In a multibillion-dollar-a-year enterprise, it is the 
cost of doing business.
    We need to enhance our maritime interception, and the Coast 
Guard is the first line of defense there, and they need better 
assets. And I hope to highlight that today.
    Thank you, Mr. Chairman.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Thank you Chairman Maloney. I commend you for scheduling this 
morning's hearing to shine a bright light on one reason why the Coast 
Guard is indispensable to our Nation--the Service's essential role in 
interdicting illicit drugs at sea.
    With all the talk about the Southern Border in the past two years, 
a person might assume that the border is awash in illegal drugs, among 
other threats, perceived or real. That characterization, however, is 
not the case.
    In fact, due to our concerted efforts over the past ten to twelve 
years to ratchet up security operations along our Southern Border, 
transnational criminal organizations, or TCOs, have adjusted to the 
higher risks of attempting to run drugs across the border. Moreover, 
how have they adapted? They have taken to sea.
    Whether through their use of ``fast boats'', fishing boats, or even 
semi-submersible vessels, TCOs are now utilizing the broad expanse of 
the Western Hemisphere Transit Zone--an area over twice the size of the 
continental United States--as a preferred route for moving contraband 
of all types, but especially illegal drugs such as cocaine and 
marijuana.
    This change in tactics has forced the Coast Guard and other federal 
agencies and international partners to adapt as well. I look forward to 
hearing from our witnesses this morning on how operations continue to 
evolve in order to keep one-step ahead of the TCOs.
    Yet, as much as the Coast Guard can improve its maritime domain 
awareness to produce actionable intelligence to put ``steel on 
target,'' one fact remains. The Coast Guard simply does not have 
sufficient cutters and other assets to improve substantially its 
interdiction rate in the Transit Zone. In fact, the Coast Guard only 
has the capacity to attempt to target, detect, and disrupt 20 percent 
of known drug movements.
    For too long the Coast Guard has been relying on its aged fleet of 
legacy Medium Endurance Cutters, which become less reliable, more 
expensive to repair and maintain, and worse, provide fewer days at sea.
    Perhaps belatedly, at least the Coast Guard and the administration 
have now come to the realization that a service life extension program 
(SLEP) for these cutters is way past due, and the Service has at least 
worked that into their budget request. I will definitely want to hear 
from Admiral Abel on the status of this critical initiative.
    I am also reminded that even with its deficiency in cutters, and 
even considering the vastness of the Transit Zone, the Coast Guard 
still interdicts at sea more illegal drugs than all other agencies 
combined interdict at land crossings, seizing more than $6.6 billion in 
drugs in fiscal year 2017 alone. That fact is remarkable.
    It also demonstrates, again, why it was deplorable for the Coast 
Guard to go unpaid during the recent Federal Government shutdown.
    To their credit, and as testament to their commitment to serve our 
Nation, the men and women of the Coast Guard continued to undertake 
this hazardous, if not downright dangerous, mission, all to protect the 
health, safety and security of the American people, even while not 
getting paid.
    So this morning, as we delve into better understanding the scope 
and complexity of maritime drug interdiction, I hope we all keep in 
mind how important our Coast Guard is to that initiative, and the 
importance of our obligation to ensure that the Coast Guard never again 
is forced to operate without a paycheck. Thank you.

    Mr. Maloney. I thank the gentleman. I would now like to 
welcome our witnesses.
    We are joined today by Vice Admiral Daniel B. Abel, Deputy 
Commandant for Operations for the United States Coast Guard; 
Rear Admiral Steven D. Poulin, Director of Operations for the 
United States Southern Command, also a Coastie; and Mr. Thomas 
W. Padden, United States Interdiction Coordinator for the 
Office of National Drug Control Policy.
    Without objection, our witnesses' full statements will be 
included for the record. Since we have your written statement, 
gentlemen, we ask you to limit your oral testimony to 5 
minutes.
    I just point out, in the case of Admiral Poulin, I would 
encourage you to make any remarks in addition to the submitted 
testimony, since it is not yours. As much as I enjoyed reading 
the testimony of Admiral Craig Faller, who is the commander of 
the United States Southern Command, it would be wonderful to 
have testimony delivered to this committee that is intended for 
this committee, and not for another purpose.
    So thank you all for being here. I would like to proceed 
with you, Admiral Abel. Go ahead, sir.

TESTIMONY OF VICE ADMIRAL DANIEL B. ABEL, DEPUTY COMMANDANT FOR 
 OPERATIONS, U.S. COAST GUARD; REAR ADMIRAL STEVEN D. POULIN, 
 DIRECTOR OF OPERATIONS, U.S. SOUTHERN COMMAND; AND THOMAS W. 
PADDEN, U.S. INTERDICTION COORDINATOR, OFFICE OF NATIONAL DRUG 
                         CONTROL POLICY

    Admiral Abel. Good morning, Chairman DeFazio, Chairman 
Maloney, and Ranking Member Gibbs. Thank you for an opportunity 
to speak today about the Coast Guard's interdiction operations 
in our hemisphere. I am particularly pleased to testify 
alongside two key shipmates in our Nation's fight against 
transnational criminal organizations, or TCOs.
    In June of 1983, as a new ensign, I reported aboard Coast 
Guard cutter Dauntless in Miami, Florida. As such, 36 years ago 
I joined the Nation's fight against those seeking to traffic 
drugs across our shores. With this perspective, I can assure 
you that the tactics and resources our Service employs to 
confront the flow of this corrosive element has evolved 
significantly over the last three decades.
    Concurrently and regretfully, drug runners of the 1980s 
have matured into transnational criminal organizations, 
multinational enterprises that are, unfortunately, adaptive, 
business-savvy, wield the influence of seemingly unlimited 
funds, and are proving to be highly effective.
    We confront threats far from our land border, where 
traffickers are most vulnerable, and efforts net wholesale or 
Costco-styled size versus retail-size loads that could prove 
vexing for local police.
    Since success requires the convergence of three essential 
elements--intel cueing to focus maritime operations on the size 
of twice the continental United States; patrol aircraft that 
help pinpoint targets; and finally, an afloat presence with 
pursuit boats and helicopters, from which use of force can be 
employed to compel compliance--we are getting results.
    Coast Guard is on track for a fourth consecutive year of 
200-plus metric tons of cocaine seized. These efforts likewise 
diminish the ability of criminals to fuel violence that 
destabilizes partner nations and create that migration push 
factor in these trafficking corridors.
    Regarding our on-scene presence, I cited my first 
assignment cutter Dauntless. She remains on watch today. She is 
over 50 years old. She and her sister Medium Endurance Cutters 
are truly the patrol cars of this mission: 70 percent of our 
offshore presence. However, this fleet is increasingly 
expensive to keep in service, unreliable, and lacks the 
capability of modern patrol vessels.
    Last year alone unplanned maintenance yielded the loss of 
two major cutters in the fight. Like our National Security 
Cutter, our Service is grateful to Congress' efforts to 
recapitalize our aging multimission Medium Endurance Cutters.
    Over 90 percent of 2018 interdictions were intel cued. 
However, it is difficult to locate targets in a massive West 
Hemisphere transit zone. Small unmanned aerial systems game 
changes are being added aboard our National Security Cutters 
and augmenting manned aircraft. In a single deployment Coast 
Guard cutter Stratton's small UAS was key to removing nearly 9 
metric tons of cocaine and 23 suspects.
    Just as today's Coast Guard has matured, the TCOs have 
evolved in response. We now confront self-propelled semi-
submersible, special-built, low-profile vessels, along with a 
typical go-fast. But it takes a network to defeat a network. We 
partner with Colombia, Mexico, Costa Rica, other Central and 
South American and Caribbean nations. Likewise, Dutch, British, 
French, and Canadian ships, at times with embarked U.S. Coast 
Guard teams, are complementing multinational counterdrug 
results.
    Within our own Department, DHS, full-court press is 
harmonizing cross-component capabilities and getting results 
off Puerto Rico and the Virgin Islands.
    Now, I have cited my observations as a three-decades-plus 
veteran in our Nation's counternarcotics fight. One constant 
remains: the unwavering resolve of Coast Guard crews to take 
all measures. In fact, at times, risking their own lives to 
keep this poison from the streets of our Nation and, 
ultimately, our citizens.
    Thank you for the opportunity to testify today. I look 
forward to your questions, and I greatly appreciate your 
support of the women and men who are the United States Coast 
Guard. Semper paratus.
    [Admiral Abel's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Vice Admiral Daniel B. Abel, Deputy Commandant 
                    for Operations, U.S. Coast Guard
                              introduction
    Good morning Mr. Chairman and distinguished Members of this 
committee. It is a pleasure to be here today to discuss the United 
States Coast Guard's drug interdiction mission and our role in 
combating Transnational Criminal Organizations (TCOs).
    Drug trafficking has destabilized regional states, undermined the 
rule of law, terrorized citizens, and driven both families and 
unaccompanied children to migrate to the U.S. To be clear, the flow of 
illicit drugs funds TCOs, which, in turn, pose a significant and 
growing threat to national and international security.
    The Coast Guard leverages 229 years of experience addressing a full 
range of national security and safety concerns. The Coast Guard is a 
unique branch of the nation's five armed services, and serves as the 
United States' premier agency for maritime law enforcement, whose broad 
array of authorities, capabilities, competencies, and partnerships are 
vital to successful mission execution. The Coast Guard is the lead and 
only federal maritime law enforcement agency with both the authority 
and capability to enforce national and international law, including 
drug interdiction, on the high seas. The Coast Guard shares the lead 
for U.S. territorial seas interdiction and enforcement responsibilities 
with U.S. Customs and Border Protection (CBP).
    Additionally, the White House's Director of National Drug Control 
Policy designated the Coast Guard Commandant as the Chairman of The 
Interdiction Committee (TIC). TIC is a senior interagency forum, with 
drug control representatives from twenty-six different departments and 
agencies, which meets to discuss and resolve issues related to the 
coordination, oversight, and integration of international, border, and 
domestic drug interdiction efforts countering networks in support of 
the President's National Drug Control Strategy (NDCS).
    TIC supports the NDCS by developing interagency recommendations to 
promote information sharing and integrating detection, monitoring, and 
law enforcement activities with interdiction efforts to more 
effectively disrupt and dismantle drug trafficking transportation and 
distribution systems.
    In addition to national interagency partners, the Coast Guard 
maintains an extensive array of bilateral and multilateral agreements 
with nearly every coastal state in the Western Hemisphere. These 
agreements support the Coast Guard in effectively and efficiently 
leading maritime interdiction efforts in the region including a 
collaborative approach to the mutually beneficial fight against TCO 
networks.
    For over two centuries, guided by the Coast Guard's motto, Semper 
Paratus--Always Ready, the Service has built a reputation as one of the 
most agile and adaptive agencies within the Federal Government. These 
qualities have served the Nation in the Coast Guard's efforts to combat 
smugglers' ever-evolving conveyances and tactics. Coast Guard 
interdictions routinely uncover linkages to drug trafficking 
organizations operating throughout South and Central America, including 
the Mexico-based Sinaloa and Jalisco New Generation (CJNG) cartels and 
the Colombia-based Clan del Golfo cartel, with numerous criminal 
networks identified that operate independently of other named 
organizations. We have identified hundreds of actionable targets, from 
ground based coordinators, facilitators, financiers, recruiters, and 
others who facilitate the maritime transportation of narcotics to the 
United States and partner nations. Even the recent conviction of ``El 
Chapo'' links to evidence gathered through Coast Guard maritime 
interdictions. Over the last three years, over 1,800 smugglers 
apprehended at sea by the Coast Guard were delivered to the U.S. 
Department of Justice for their roles in enabling criminal activity and 
drug smuggling efforts. In fiscal year 2018, Coast Guard interdictions 
were instrumental in disrupting 82 percent of detected Consolidated 
Priority Organizational Targets, or drug kingpins, in support of Joint 
Interagency Task Force-South (JIATF-South). The Coast Guard also 
partners with the Organized Crime Drug Enforcement Task Force's 
(OCDETF's) Maritime Strike Forces to combat national and international 
drug trafficking organizations, and has representation at the Associate 
Director level at the OCDETF Executive Office.
    From 1973 through 1991, the Coast Guard removed over 26 million 
pounds of marijuana, targeting and interdicting a variety of smuggling 
conveyances including commercial fishing vessels, ocean-going cargo 
freighters, and pleasure craft. Beginning in the late 1990s through 
today, cocaine has been the predominant drug trafficked via maritime 
routes. During this time, drug traffickers have continued to find 
innovative yet increasingly risky ways to subvert Coast Guard counter-
narcotics tactics. Cocaine cartels initially used some of the very same 
conveyances used by marijuana smugglers; they transported multi-ton 
loads of cocaine on slow vessels with high cargo capacity that were 
vulnerable to interdiction. These cartels quickly adapted to Coast 
Guard interdiction efforts and expanded tactics to include the 
ubiquitous ``go-fast vessel,'' as well as more modern conveyances, 
including the purpose-built Self-Propelled Semi-Submersible (SPSS) and 
``low profile vessel'' (LPV) to disperse loads onto conveyances that 
are even more difficult to detect.
    According to multiple U.S. Government reports, Colombia is the 
number one coca producing country in the world. Following the end of 
Colombian aerial eradication efforts in 2015, cocaine production 
increased significantly leading to three straight years of 200+ metric 
ton maritime cocaine removals, the highest three years in Coast Guard 
history. Catching this toxic drug in bulk in the maritime environment 
proves much more efficient and effective than attempting to detect and 
seize that same cocaine when it is broken up into smaller loads coming 
across the land border or being sold on our city streets. To meet this 
growing threat and prevent these drugs from reaching the United States, 
the Coast Guard has dedicated additional attention and assets to the 
Transit Zone, invested in the people and platforms necessary to carry 
out an aggressive interdiction effort, and helped to build regional 
partner capabilities.
  current threat: transnational criminal organizations, violence, and 
                              instability
    One of the goals of the Coast Guard's drug interdiction program is 
to interdict illicit traffic as close to the source as possible. This 
helps to stem the flow of drugs reaching Central America, Mexico, and 
the United States. Over the past five years, Coast Guard cutters and 
aircraft have removed more than 871 metric tons of high-purity cocaine 
from at sea, with a wholesale value of approximately $26 billion \1\. 
That equates to tremendous social and economic impacts, potentially 
preventing as many as 5,200 to 9,500 cocaine-related overdose deaths, 
480,000 to 9.9 million new U.S. cocaine users, and the introduction of 
up to 67,000 U.S. drug-related offenders to the penal system, saving up 
to $2 billion in costs of inmate care, and potentially preventing as 
many as 33,000 violent murders in Mexico and Central America. Despite 
these successes, TCO networks operate throughout Central America, vying 
for power through drug-fueled violence and corruption of government 
officials; in fact, eight of the ten countries with the highest per 
capita rates of homicide are along the cocaine trafficking routes in 
the Western Hemisphere.\2\
---------------------------------------------------------------------------
    \1\ US Department of Justice, Drug Enforcement Administration, 2013 
United States Illicit Drug Prices, DEA Intelligence Report, DEA-DCW-
DIR-012-15, January 2015.
    \2\ United Nations Office on Drugs and Crime (UNODC), UNODC 
Research and Trend Analysis Branch, Global Study on Homicide 2013.
---------------------------------------------------------------------------
    In response, the Coast Guard's Western Hemisphere Strategy 
identifies three priorities for the maritime domain in the Western 
Hemisphere: combating networks, securing borders, and safeguarding 
commerce.
        combating tcos--a layered approach to drug interdiction
    The Coast Guard uses a ``maritime trident'' of cutters, boats, and 
aircraft in a layered approach to combatting TCOs as they transport 
illicit goods from the source zone, through Central America, Mexico, 
the Caribbean, and into the United States. This approach confronts the 
threat beyond our land borders, on the high seas where traffickers are 
most exposed and drugs are most vulnerable to interdiction. This 
layered approach begins overseas, spans the offshore regions, and 
continues into our territorial seas and our ports of entry.
    In the offshore transit zone, the Coast Guard is the major maritime 
interdiction asset provider to U.S. Southern Command through JIATF-
South, which executes U.S. Department of Defense (DoD) statutory 
responsibility for the detection and monitoring of illicit drug 
trafficking in the air and maritime domains bound for the United 
States. The fixed-wing maritime patrol aircraft, provided by the Coast 
Guard, CBP, DoD, and partner nations, coupled with sophisticated 
intelligence cueing capabilities provided through JIATF-South, enables 
Coast Guard interdiction efforts. The most capable Coast Guard 
interdiction platforms include flight deck-equipped major cutters, 
embarked armed helicopters, deployable pursuit-capable boats, and Coast 
Guard law enforcement detachments embarked on U.S. Navy and allied 
ships.
    In Fiscal Year 2018, the Coast Guard provided 17 percent of total 
maritime patrol aircraft, 74 percent of ships, 94 percent of armed 
helicopters, and all law enforcement detachment support to JIATF-South. 
Coast Guard collected interdiction data is then fed back to the 
apprehension effort to cue additional interdiction success. In Fiscal 
Year 2018, assets coupled with both intelligence targeting and 
dedicated maritime patrol aircraft support had nearly double the 
interdiction rate as opposed to those patrolling ships that had only 
one or neither of these supporting elements.
    New assets are proving increasingly effective in this fight. During 
a 2018 deployment, the National Security Cutter (NSC) STRATTON, in 
support of JIATF-South, removed nearly nine metric tons of cocaine and 
apprehended 23 suspected smugglers as a direct result of their embarked 
small unmanned aircraft system (sUAS). The sUAS capability is a force 
multiplier--it expands the NSC's detection radius, can provide 
persistent presence awaiting the Coast Guard's arrival on scene, and 
provides situational awareness to boarding and helicopter teams. This 
fiscal year we will continue to deploy sUAS on NSCs, further increasing 
the effectiveness of our most-capable offshore patrol assets. This 
ability to organically target, detect, and interdict drug smuggling 
vessels is critical in an operating area greater than the size of the 
continental U.S. Since Fiscal Year 2017, interdictions from five NSCs 
alone have netted over 300 suspects to U.S. prosecution and removed 
over 123 metric tons of cocaine with a street value of $3.7 billion,\3\ 
accounting for nearly 25 percent of all cocaine removals that year.
---------------------------------------------------------------------------
    \3\ US Department of Justice, Drug Enforcement Administration, 2013 
United States Illicit Drug Prices, DEA Intelligence Report, DEA-DCW-
DIR-012-15, January 2015.
---------------------------------------------------------------------------
    One of our newest assets, the near-coastal Fast Response Cutter 
(FRC), is also a critical tool in our border security and interdiction 
posture. In 2017, the Coast Guard Cutter JOSEPH NAPIER, newly 
homeported in Puerto Rico, interdicted 4.2 metric tons of cocaine, the 
largest interdiction of any FRC.
    Our interdiction capabilities continue to prove their value against 
TCO's conveyance of choice: the go-fast vessel. In Fiscal Years 2017 
and 2018, our Helicopter Interdiction Tactical Squadron (HITRON) of 
armed helicopters--along with partner aircraft from the U.S. Navy, the 
Netherlands, and the United Kingdom, operating under the Coast Guard's 
law enforcement authority--set a record of 126 at-sea interdictions, 
with over 115 metric tons of cocaine removed; more than any other two-
year total in Coast Guard history.
    In addition, the Coast Guard began providing high-speed pursuit 
boats and crews to U.S. Navy Patrol Coastal class ships operating in 
the transit zone in 2016 to increase interdiction opportunities. 
Coupled with Coast Guard Law Enforcement Detachments and other 
deployable specialized forces personnel, this innovative force package 
capability has netted 21 interdictions and removed over 14 metric tons 
of cocaine since its inception.
    The importance of interdictions transcends the direct removal of 
drugs from the high seas; when the Coast Guard apprehends suspects from 
drug smuggling cases, the suspects disclose information during 
prosecution and sentencing that is used to help indict, extradite, and 
convict key criminal leaders and further disrupt and dismantle TCOs. 
Interdictions also take profits out of the pockets of criminal networks 
by denying them financial resources. The Coast Guard has recently 
refined its interdiction analytics to examine several measures of 
success to include the seizure rate of valuable non-drug evidence.
    In Fiscal Year 2018, 70 percent of U.S. Coast Guard drug 
interdictions resulted in the collection of non-drug evidence that 
provide links between individual smugglers and related TCO activity. 
These critical elements contribute to actionable intelligence for 
future events, producing follow-on investigative leads, seizures, and 
arrests.
    In total for Fiscal Year 2018, the Coast Guard removed 209 metric 
tons of cocaine and 25,200 pounds of marijuana from the transit zone, 
worth an estimated wholesale value of $6.2 billion, with 602 suspected 
smugglers apprehended. This marked the third consecutive year the 
Service exceeded 200 metric tons of cocaine removed. Despite the 
tremendous quantity of cocaine removed in Fiscal Year 2018, the Coast 
Guard estimates that it, along with our entire domestic and 
international partners, were able to remove only 9.4 percent of the 
suspected non-commercial maritime cocaine flow in the transit zone. 
Interagency analysis shows a continued elevated flow of cocaine in the 
transit zone, and the subsequent maritime smuggling threat is projected 
through at least 2020. Increased flow, coupled with evolving 
conveyances and concealment tactics, this will continue to stress our 
ability to respond adequately to this threat.
    While more than 90 percent of our 2018 interdictions were cued by 
intelligence, the limited availability of Coast Guard's aging major 
cutters and the number of limited assets available to detect all the 
cued drug events, ultimately restricted our ability to interdict more 
targets. Critical acquisitions like the Offshore Patrol Cutter (OPC) 
are essential to the long-term success in the Coast Guard's fight 
against TCOs. Medium endurance cutters, some that were commissioned in 
the 1960s, are the critical ``patrol cars'' in maritime interdiction 
efforts and are desperately in need of replacement. Additionally, 
whole-of-government commitment of additional detection capability, 
particularly long-range patrol aircraft, remains critical to increasing 
the number of identified targets that can be interdicted.
                       international cooperation
    In coordination with JIATF-South, the Coast Guard is engaged with 
partner nations, including key partners Colombia, responsible for 60 
percent of critical movement alerts to JIATF-South, and Mexico, as well 
as countries throughout Central and South America, leveraging their 
capabilities and local knowledge to improve maritime governance in the 
littoral regions being exploited by TCOs. Among the efforts to foster 
international cooperation and build partner capacity, Coast Guard 
personnel are posted as attaches, liaisons, and drug interdiction 
specialists at several embassies in the Western Hemisphere. These 
personnel develop strategic relationships with partner nations that 
facilitate the coordination of real-time operations. The Coast Guard's 
law enforcement, legal, and regulatory expertise are in high demand 
from Central American partners, whose navies more closely resemble the 
U.S. Coast Guard, focusing primarily on maritime law enforcement rather 
than force projection. Coast Guard International Training Teams, as 
well as cutters deployed in the region, increase professional 
interaction, training in conjunction with operations, and maritime 
exercises.
    Highlighting international cooperation and success, over the past 
year, the Coast Guard leveraged the U.S./Costa Rica Bilateral Agreement 
through a joint shiprider operation with Costa Rica from December 2018 
through April 2019. Costa Rican Maritime Interdiction Units, supported 
by U.S. Coast Guard law enforcement personnel, enhanced their country's 
ability to conduct interdiction operations from the newly acquired 
Libertadors (former US Coast Guard 110-foot patrol boats), resulting in 
the removal of over four metric tons of cocaine. More importantly, the 
training provided by U.S. Coast Guard law enforcement personnel, 
coupled with a bolstered surface fleet, enabled Costa Rica to emerge as 
a powerful force multiplier in the Transit Zone.
    Increased cooperation with Panama and Costa Rica over the last few 
years have garnered substantial results in each country's role in the 
multi-national fight against TCOs. Over the past two years, Panama and 
Costa Rica have ranked one and two, respectively, in partner nation 
support to JIATF-South interdictions and cocaine removals, netting a 
total of more than 65 metric tons of cocaine spanning 83 interdictions. 
Furthermore, the Coast Guard has supported the strengthening of each 
country's systems to advance legal consequences, providing boarding 
officer testimony in six in-country trials, collectively enforcing rule 
of law in the Western Hemisphere.
    Working in conjunction with the U.S. Departments of State and 
Justice, the Coast Guard negotiated, concluded, and maintains over 40 
counterdrug bilateral agreements and operational procedures with 
partner nations throughout the world, the majority of which are in the 
Western Hemisphere. These agreements enable the Coast Guard to board 
suspect vessels, facilitate interdictions in under-patrolled 
territorial waters of partner nations, and coordinate interdiction and 
apprehension operations in the transit zone. Highlighting their 
importance to Coast Guard counterdrug efforts, 66 percent of all Coast 
Guard interdictions in fiscal year 2018 involved the use of a bilateral 
agreement or operational procedures agreement.
                            the arrival zone
    Closer to the shores of the United States, Coast Guard operational 
commanders work with the other operational components within the U.S. 
Department of Homeland Security (DHS) and across the Federal Government 
to provide a robust presence in the U.S. maritime approaches by 
deploying FRCs, high speed pursuit boats and aircraft. To achieve unity 
of effort, the Coast Guard is a major contributor to DHS' Southern 
Border and Approaches Campaign. The Coast Guard Atlantic Area Commander 
serves as the Director of Joint Task Force East, overseeing 
coordination efforts for DHS components operating in the maritime 
approaches in the Caribbean Sea, Gulf of Mexico, and eastern Pacific 
Ocean. This component of DHS is instrumental in the aggressive posture 
aimed at securing our maritime borders surrounding Puerto Rico and the 
U.S. Virgin Islands, including the approaches from South America, 
Hispaniola, and the Leeward Islands. Surge operations such as FULL 
COURT PRESS continue to leverage DHS targeting, detection, and 
interdiction capabilities, resulting in the removal of 44 metric tons 
of cocaine and apprehension of 156 suspected smugglers over the past 
two years.
                               conclusion
    The Coast Guard endeavors to secure our vast maritime border by 
identifying emergent threats and combatting them in a layered approach, 
utilizing strong international relationships and maximizing domestic 
and regional partnerships. The Coast Guard stands ready to meet 
offshore and coastal drug trafficking threats in the maritime domain 
posed by TCOs operating throughout the transit zone.
    Thank you for the opportunity to testify today, and thank you for 
your continued support of the U.S. Coast Guard. I would be pleased to 
answer your questions.

    Mr. Maloney. Thank you, Admiral.
    Admiral Poulin?
    Admiral Poulin. Good morning, Chairman DeFazio, Chairman 
Maloney, Ranking Member Gibbs, and members of the committee. It 
is an honor for me to appear before you today. And I would like 
to note that, although I sit here wearing a Coast Guard 
uniform, I testify before you as the Director of Operations for 
the United States Southern Command, one of six DoD regional 
combatant commands responsible for all U.S. military operations 
in a region comprising Central and South America and the 
Caribbean.
    I note that I was privileged to follow Vice Admiral Abel in 
this position at Southern Command, as he departed for his new 
responsibilities, his current responsibilities, as the Deputy 
Commandant for Operations. Thank you for inviting me to 
participate in this hearing on behalf of Admiral Faller, the 
commander of the United States Southern Command.
    Having a coastguardsman in this position is unique among 
combatant commands, and it demonstrates the vital partnership 
between the U.S. Southern Command and the Coast Guard, with the 
Coast Guard providing almost all of the maritime assets in the 
U.S. Southern Command region. These Coast Guard assets conduct 
a full suite of missions supporting United States Southern 
Command, ranging from counternarcotics detection and 
monitoring, national defense, humanitarian assistance, security 
cooperation, and training exercises.
    The Coast Guard also conducts critical maritime force 
protection for our Joint Task Force Guantanamo Bay that is 
responsible for the safe, legal, and humane treatment of 
detainees. Simply put, the Coast Guard is U.S. Southern 
Command's maritime service provider.
    Although our partnership with the Coast Guard is most 
relevant to today's hearing, I would be remiss if I didn't 
highlight the incredible partnerships we enjoy with other U.S. 
Government agencies, as well as with willing and capable 
partner nations throughout the Western Hemisphere. These 
partnerships are particularly strong with respect to the 
detection and disruption of illegal narcotics. Nowhere are 
these partnerships on greater display than at Joint Interagency 
Task Force South, JIATF South, and Key West. Twenty partner 
nations and representatives from 16 agencies sit side by side 
in what has become the model for cooperation toward the common 
goal of stemming illicit trafficking.
    Mr. Chairman, I want to thank you personally for taking the 
time to visit JIATF South recently to see firsthand how 
effective we are in pulling together all of our strengths. I 
invite all members of the committee to come down and see what a 
great collaborative international and interagency work that 
JIATF South is, and the great work that is being done in 
collaboration.
    I would also invite and encourage you to visit our partner 
nations to get an indepth understanding of the importance of 
the region. I can tell you that others recognize its 
importance. China and Russia are here in a big way, and I say 
``here'' purposely. The Western Hemisphere is our shared 
neighborhood. We are connected with our regional partners in 
every domain: land, air, sea, space, cyber, and values. The 
challenges that threaten our neighborhood are the same 
challenges that directly threaten our homeland, and the 
opportunities in this hemisphere are all of ours to foster and 
share.
    The Commandant of the Marine Corps said it best and most 
powerfully, I think. As the Chinese establish presence in 
countries throughout this hemisphere, he noted--and I quote--
``They are inside our interior lines.''
    So how do we counter that? We have to be good partners, and 
that includes being good partners in the counterdrug arena. The 
drug trade is connected to all facets of security. It creates 
instability in the region, undermines the rule of law, and 
corrupts governments and institutions. It creates a permissive 
environment that allows state and nonstate actors to conduct 
malign activities that threaten the peace and prosperity of the 
region.
    The Coast Guard regularly commits more assets to the 
counterdrug mission than is required through our annual force 
allocation effort. The Coast Guard's commitment really enables 
the successes that you will hear about today.
    Our partner nations are also in this fight with us. 
Colombia has increased its eradication efforts by over 50 
percent since last August. They prevent coca from ever reaching 
the transit zone--from ever starting its journey north. 
Partners in the transit zone like Panama, Costa Rica, and 
Guatemala are taking the equipment and the training the U.S. 
provided them, and are taking cocaine off the high seas by the 
ton. Last year partner nations directly contributed to 700 
American lives saved. Not only is this our neighborhood, but it 
offers a high return on investment that directly impacts our 
own national security.
    Again, I appreciate the opportunity to be here and I look 
forward to your questions. Thank you, sir.
    [Admiral Poulin submitted the prepared statement of Admiral 
Craig S. Faller, Commander, U.S. Southern Command, as the 
statement for the U.S. Southern Command:]

                                 <F-dash>
Prepared Statement of Admiral Craig S. Faller, Commander, U.S. Southern 
 Command, as delivered to the House Armed Services Committee on May 1, 
                                  2019
                              introduction
    I want to thank the Congress, and especially this Committee, for 
your support to United States Southern Command (USSOUTHCOM). The men 
and women of our team work every day to earn the trust of partners in 
Latin America and the Caribbean. We are friends and neighbors, bound 
together by shared values and a shared stake in our common future. The 
nations of this neighborhood are connected in every domain--sea, air, 
land, space, and cyberspace. Our partnerships are vital to security and 
prosperity in this hemisphere, and to our collective ability to meet 
complex global challenges. We recognize that the success and security 
of future generations depend on how effectively we build trust with 
allies and partners in the hemisphere today, working with and through 
interagency partners like the Department of State, U.S. Agency for 
International Development (USAID), Department of Homeland Security 
(DHS), and Department of Justice (DOJ). Ultimately, we want enemies to 
fear us, friends to partner with us, and the Western Hemisphere to 
shine as a beacon of peace, prosperity, and potential.
    The strengths and opportunities of our hemisphere--democracy, 
respect for human rights and rule of law, and military-to-military 
relationships rooted in education, culture, and values--are matched 
with a troubling array of challenges and threats to global security and 
to our homeland. These include natural and man-made disasters, weak 
government institutions, corruption, under-resourced security 
organizations, violent crime, criminal organizations, and violent 
extremist cells. China has accelerated expansion of its One Belt One 
Road Initiative at a pace that may one day overshadow its expansion in 
Southeast Asia and Africa. Russia supports multiple information outlets 
spreading its false narrative of world events and U.S. intentions. Iran 
has deepened its anti-U.S. Spanish language media coverage and has 
exported its state support for terrorism into our hemisphere. Russia 
and China also support the autocratic regimes in Venezuela, Cuba, and 
Nicaragua, which are counter to democracy and U.S. interests. We are 
monitoring the latest events in Venezuela and look forward to welcoming 
that country back into the hemisphere's community of democracies. Where 
threats are transregional, multi-domain, and global, the United States 
must renew focus on our neighbors and our shared Western Hemisphere 
neighborhood.
                              partnerships
    Modest, smart, and focused investments in U.S. forces and security 
assistance continue to yield meaningful returns in the form of partners 
who are ready to address threats shoulder-to-shoulder with us. 
Strengthening partnerships is at the heart of everything we do. 
USSOUTHCOM's mission is about the smart, focused use of force--not 
economy of force.
    Working from a foundation of mutual respect and shared interests in 
regional cooperation and interoperability, we are enhancing our 
partnerships with Brazil, Colombia, and Chile, which are forces for 
regional and global security. Argentina has reinvigorated military-to-
military interaction, and co-hosted our annual South American Defense 
Conference. Peru continues a tradition of strong liaison officer 
exchanges with USSOUTHCOM and recently conducted training with a 
Special Purpose Marine Air-Ground Task Force (SPMAGTF). We reinitiated 
security cooperation with Ecuador, and are moving forward with a 
renewed military-to-military partnership.
    In Central America, partners like El Salvador and Panama have 
stepped up cooperation in the area of counter-narcotics (CN); in 
addition, El Salvador co-hosted our Central American Security 
Conference last year. Honduras hosts our Joint Task Force (JTF) Bravo 
at Soto Cano, providing a regionally-based security cooperation 
platform, the presence of which allows a rapid response capability. Our 
support to Guatemala's defense institution building efforts has helped 
its Ministry of Defense increase efficiency, transparency, and 
sustainability of its investments.
    Across the Caribbean, our partners continue to look at USSOUTHCOM 
as their security partner of choice. Trinidad and Tobago co-hosted our 
annual Caribbean Nations Security Conference, and thwarted a terror 
attack with the support of U.S. special operations forces (USSOF). 
Jamaica has stepped up its CN efforts, recently purchasing a maritime 
patrol aircraft that will support regional drug interdiction 
operations.
    We continue to expand our cooperation with allies and partners in 
humanitarian assistance/disaster response (HA/DR) missions and counter-
threat efforts, such as drug detection and monitoring, and support to 
interdiction operations in Central America and the Caribbean. Allies 
and partners contributed to nearly half of the successful drug seizures 
credited to Joint Interagency Task Force South (JIATF-S) last year. In 
addition to continuing cooperation in traditional areas like 
peacekeeping and drug interdiction, we are building interoperability 
for high-end expeditionary operations and in the space and cyber 
mission sets. In the past year, Brazil became the first Latin American 
country to sign a Space Situational Awareness Agreement, Colombia 
became NATO's first global partner in Latin America, and Chile led the 
maritime component of the world's largest international naval exercise, 
Rim of the Pacific--a first for a Latin American sea power. Later this 
year, Brazil will send a Major General to serve as U.S. Army South's 
next Deputy Commander for Interoperability, the first Brazilian officer 
to serve in this role.
    The majority of nations in this hemisphere share democratic 
values--including respect for human rights and adherence to the rule of 
law--and interests in advancing democracy and countering radical 
ideologies. These shared values and interests are the foundation of our 
military-to-military relationships. We reinforce and build on these 
shared values and interests through institutional capacity building 
efforts, information and intelligence sharing, education, personnel 
exchanges, and exercises. In the past year, we have improved the 
quality, depth, and frequency of information and intelligence exchanges 
with partners, producing joint products on transnational issues of 
mutual concern.
    We also build on those shared values by working with our partners 
to elevate and integrate all elements of professionalism as a 
foundational component of every security conference we conduct. The 
professionalism of U.S. armed forces is the bedrock of our legitimacy, 
both as a fighting force and in our ability to build trust with our own 
people. Professionalism encompasses human rights, jointness, gender 
integration, and non-commissioned officer development.
    Education and training--funded by the Department of Defense's 
William J. Perry Center for Hemispheric Defense Studies and the 
Department of State's International Military Education and Training 
(IMET) program--and Foreign Military Sales (FMS) purchases made 
possible by Foreign Military Financing (FMF) grants are force 
multipliers. Our partners prefer U.S. education and training, and these 
exchanges facilitate mutual understanding of values, doctrine, and 
culture that enable us to operate together more effectively. Our 
participation in multinational exercises like UNITAS (a naval 
integration exercise), PANAMAX (defense of the Panama Canal), and 
Brazil's CRUZEIRO DO SUL (regional air exercise) is another important 
way we increase mutual understanding, interoperability, and collective 
readiness.
    In the absence of an enduring U.S. military presence in most of 
Latin America and the Caribbean, recurring rotations of small teams of 
USSOF, soldiers, Marines, and National Guard personnel \1\ play central 
roles in building trust and enabling the exchange of critical 
expertise. By carefully tailoring these rotations, we ensure they build 
the readiness of U.S. forces as well as building partner nations' 
capabilities. On any given day, small USSOF teams conduct over 30 
missions in support of about 12 partner nations throughout Latin 
America and the Caribbean. Many live and work alongside regional 
forces, building the trust, confidence, and lasting relationships that 
reinforce our status as the partner of choice and enhance our ability 
to respond quickly to contingencies.
---------------------------------------------------------------------------
    \1\ The State Partnership Program (SPP) links a unique component of 
the Department of Defense--a state's National Guard--with the armed 
forces or equivalent of a partner nation, leveraging National Guard 
capabilities for engagements that build enduring relationships and 
advance mutual defense and security goals. 24 of the SPP's 75 
partnerships worldwide are in the USSOUTHCOM area of responsibility, 
including a partnership with Venezuela that is currently inactive.
---------------------------------------------------------------------------
    Humanitarian support efforts like medical engagements, civil 
affairs activities, and the recent deployment of the hospital ship USNS 
COMFORT demonstrate our enduring solidarity and friendship with 
neighbors, while countering negative messaging by adversarial nations. 
The international medical team aboard COMFORT treated more than 26,000 
patients in Colombia, Peru, Ecuador, and Honduras. This team conducted 
more than 100 training engagements, relieving pressure on regional 
health systems caused by the Venezuelan migration crisis and giving 
local medical providers more flexibility to deliver care. The 
integration of more than 100 military and non-governmental organization 
(NGO) personnel from 10 other nations helped us build trust, tell our 
story effectively, and enhance regional perceptions of the United 
States. The U.S. military medical and command staff also returned from 
the deployment more ready, able to operate with foreign partners, and 
prepared to provide critical care to U.S. warfighters. These impacts 
will far outlast COMFORT's 70-day deployment.
    Strengthening our partnerships is our best bid for addressing 
regional and global threats. We work by, with, and through partners to 
enhance the security of both the United States and our partners, and to 
help grow bilateral security relationships into regional and global 
security initiatives. Our networked approach to countering threats 
recognizes that nothing happens without robust and enduring 
partnerships across the U.S. interagency, region, and civil society. 
Our ultimate advantage is using the power of our ideals, ideas, and 
people to build trust with friends and create dilemmas for competitor 
nations. This is the primary dimension in which we expand the 
competitive space.
                                threats
    Six state actors (Russia, China, Iran, and their authoritarian 
allies in Cuba, Nicaragua, and Venezuela) and a system of interrelated 
threats challenge the security of our partners and the region. Threats 
like natural and man-made disasters and criminal networks feed and fuel 
drivers of instability, including weak institutions, poverty, 
corruption, and violent crime. Addressing these challenges requires 
whole-of-government efforts, led by partner nations at a pace they can 
sustain, to strengthen democratic institutions and expand economic 
opportunity. Often, improving security is the first step.
Nation State Competition and Malign Actors
    Russia and China are expanding their influence in the Western 
Hemisphere, often at the expense of U.S. interests. Both enable--and 
are enabled by--actions in Venezuela, Nicaragua, and Cuba that threaten 
hemispheric security and prosperity, and the actions of those three 
states in turn damage the stability and democratic progress across the 
region. As the leading state sponsor of terrorism in the world, Iran's 
activities in the region are also concerning.
    Russia continues to use Latin America and the Caribbean to spread 
disinformation, collect intelligence on the United States, and project 
power. Russia's deployment of two nuclear capable bombers to the 
Western Hemisphere was intended as a demonstration of support for the 
Maduro regime and as a show of force to the United States. Russia has 
also deployed intelligence collection ships to the region, as well as 
an underwater research ship to Latin America capable of mapping 
undersea cables--information it could use to cut critical lines of 
communication during a future crisis. Additionally, Russia is 
establishing joint space projects with partners in the region, which it 
could eventually leverage for counter-space purposes in the event of a 
global conflict.
    China utilizes the same predatory, non-transparent foreign lending 
practices it has implemented around the world to exert political and 
economic leverage in certain countries. China has pledged at least $150 
billion in loans to countries in the hemisphere,\2\ and 17 nations now 
participate in the One Belt One Road Initiative. However, many 
countries are beginning to recognize the long-term consequences of 
mortgaging their future to China, as we've seen in Sri Lanka, Malaysia, 
Sierra Leone, Djibouti, and the Maldives. In the future, China could 
use its control of deep water ports in the Western Hemisphere to 
enhance its global operational posture. Particularly concerning is 
China's effort to exert control over key infrastructure associated with 
the Panama Canal.
---------------------------------------------------------------------------
    \2\ Gallagher, Kevin P. and Margaret Myers (2017) ``China-Latin 
America Finance Database.'' Washington, DC: Inter-American Dialogue
---------------------------------------------------------------------------
    China's presence and activities at Argentina's deep space tracking 
facility is also concerning. Beijing could be in violation of the terms 
of its agreement with Argentina to only conduct civilian activities, 
and may have the ability to monitor and potentially target U.S., 
Allied, and partner space activities. Additionally, Chinese firms like 
Huawei and ZTE have aggressively penetrated the region, placing 
intellectual property, private data, and government secrets at risk. If 
governments in Latin America and the Caribbean continue to gravitate 
toward using Chinese information systems, our ability and willingness 
to share information over compromised networks is likely to suffer.
    Russia and China aggressively court students from Latin America and 
the Caribbean to attend their military schools, offering free training 
in cyber, policing, and CN. Since 2012, security officials from nearly 
all Central American countries and nearly half of South American 
countries have received Russian CN training. These engagements, 
combined with Russia's Counter Transnational Organized Crime Training 
Center (CTOC) in Nicaragua, potentially provide Moscow with a regional 
platform to recruit intelligence sources and collect information.
    Russia and China also support their authoritarian partners in Cuba, 
Venezuela, and Nicaragua, often through propaganda and other 
information-related tools. Moscow, for example, provides positive media 
coverage of its authoritarian allies, papering over repression and 
socioeconomic inequity in Nicaragua. Moscow also seeks to undercut U.S. 
policies and regional relationships through information operations and 
intelligence collection, and by influencing political systems, public 
opinion, and decision makers. Russia published hundreds of articles 
last year in its Spanish and Portuguese-language media that 
deliberately distorted our defense engagements.
    The linkages between these malign actors are negatively 
reinforcing. Emboldened by Russian and Chinese \3\ support, Venezuela 
is engaging in increasingly provocative actions, threatening Guyana's 
sovereign rights and jurisdiction and providing sanctuary for National 
Liberation Army (ELN) fighters that threaten Colombian stability. 
Russia and Cuba are both complicit in Venezuela's descent into 
dictatorship, but Cuba is particularly influential in supporting 
Maduro. Following the Cuban government's advice and assisted by its 
intelligence machinery, Maduro is adhering to the autocratic blueprint 
Cuban leaders have ruthlessly executed for over six decades. Nicaragua 
appears to be going down a similar path following Cuba's playbook, with 
Cuba, Russia, and Venezuela enabling President Ortega's repression of 
his political opposition. These relationships give Russia, in 
particular, a foothold close to our homeland. As tensions increase with 
Russia in Europe, Moscow may leverage these longstanding regional 
partners to maintain asymmetric options, to include forward deploying 
military personnel or assets.
---------------------------------------------------------------------------
    \3\ For example, China is Venezuela's single largest state 
creditor, saddling the Venezuelan people with more than $50 billion in 
debt, even as their democracy vanishes.
---------------------------------------------------------------------------
    Iran is also looking to reenergize its outreach after reducing its 
efforts in Latin America and the Caribbean in recent years. It has 
deepened its anti-U.S. influence campaign in Spanish-language media, 
and its proxy Lebanese Hezbollah maintains facilitation networks 
throughout the region that cache weapons and raise funds, often via 
drug trafficking and money laundering. Last September, Brazil arrested 
a Hezbollah financier in the tri-border area near Paraguay and 
Argentina, and in recent years Paraguay, Peru, and Bolivia have 
arrested multiple Hezbollah-linked suspects.
What We're Doing
    We are increasing cooperation with partners to better understand, 
expose, and counter the malign activities of Russia, China, and their 
authoritarian allies. We are also working more closely with other U.S. 
combatant commands and the Joint Staff to ensure that globally 
integrated plans and operations are informed by threats and 
opportunities in this hemisphere. The Chairman of the Joint Chiefs of 
Staff's globally integrated planning is exactly the right approach for 
addressing the transregional, transnational nature of today's threat 
environment.
    Within the region, we have to be on the playing field to compete. 
The same presence that strengthens our partnerships sends a powerful 
signal to Russia, China, Iran, Cuba, Venezuela, and Nicaragua (the six 
negative state actors) that the United States is committed to the 
region and to the security of our neighborhood.
    Strong partnerships--founded in effective and transparent 
institutions, intelligence and information exchanges, institutional 
capacity building, education, exercises, and presence--are our primary 
bulwark against the influence of malign actors in the hemisphere and 
are bolstered by our work together on military professionalism. Our 
work with partners to reinforce the hemisphere's substantial, but 
incomplete, progress in human rights is even more critical in light of 
Russia and China's own disregard for human rights. USSOUTHCOM's Human 
Rights Initiative--which just celebrated its 20th anniversary--has 
conducted more than 200 human rights engagements that have enhanced the 
ability of partner nations to build professional forces that have 
legitimacy in the eyes of their populations.
    As I have discussed in previous testimony, the Department of 
State's security assistance programs--like IMET and FMF--are strategic 
game changers. Since 2009, IMET has provided opportunities for over 
55,000 students from the region to attend schools like the Western 
Hemisphere Institute for Security Cooperation (WHINSEC), the Inter-
American Air Force Academy (IAAFA), and the Inter-American Defense 
College (IADC). These numbers aren't just seats in a classroom. They 
represent lifelong relationships with future leaders \4\ who trust us, 
understand our culture and doctrine, and are prepared to work with us 
on a range of challenges.
---------------------------------------------------------------------------
    \4\ IMET has trained numerous individuals who have gone onto serve 
in key leadership positions, including the former President of Chile, 
Trinidad and Tobago's Chief of the Defense Staff, and Argentina's 
Chairman of the Joint Chiefs of Staff, who helped foster our 
reengagement with the Argentine military after the political dynamics 
changed.
---------------------------------------------------------------------------
    In addition to strengthening partnerships, we support interagency 
efforts to hold individuals accountable for supporting the activities 
of negative actors. For example, in collaboration with the Department 
of Treasury's Office of Foreign Assets Control (OFAC), we provided 
information that supported the development of sanctions against 
Venezuelan government officials involved in drug smuggling, money 
laundering, corruption, and serious human rights abuses.
Drugs and Transnational Criminal Organizations
    Drug trafficking threatens our national security and that of our 
regional partners. Drug overdoses killed more than 70,000 Americans 
last year, and nearly half a million people across the world in 
2017.\5\ Fueled by drug demand--especially ours--drug traffickers 
transported enough metric tons of cocaine (that we know of) from South 
America by air, land, and sea last year to cover four football fields--
and the majority of it was headed for our streets. Upon landfall, this 
bulk cocaine is broken down into multiple smaller loads and smuggled 
into the United States, making large interdictions exponentially more 
difficult. In addition to cocaine, traffickers also transport heroin, 
synthetic opioids like fentanyl, and precursor chemicals from China. 
While Mexico remains the primary source for heroin smuggled into the 
U.S. (and China the prime source of fentanyl), the Dominican Republic 
is emerging as a regional transit point for opioid trafficking into 
major U.S. cities like Philadelphia, Boston, and Miami.
---------------------------------------------------------------------------
    \5\ Centers for Disease Control, National Health Statistics; United 
Nations Office of Drugs and Crime (UNODC), 2018 World Drug Report. 
Geneva.
---------------------------------------------------------------------------
    Established drug trafficking routes and techniques provide 
opportunities for the illegal movement of other commodities and 
people--including terrorists. Several years ago, the Islamic State in 
Iraq and Syria (ISIS) dedicated an article to a scenario in which its 
followers could leverage established trafficking networks to make their 
way to our border. This remains a potential vulnerability we watch as 
closely as we can.
    Drug trafficking comes with significant costs, in more ways than 
one. After marijuana, cocaine remains the second most valuable 
commodity in the global drug trade,\6\ generating dirty money that 
flows directly into the hands of criminal groups. In many cases, these 
groups are better funded than the security organizations confronting 
them. Dirty money fosters corruption and insecurity that tear at the 
fabric of communities, erode institutions of governance, and drain the 
region's potential. The vicious side effects of illicit trade also cost 
American taxpayers billions of dollars every year. This is more than a 
national security threat; it's also an economic one that affects every 
nation in our neighborhood.
---------------------------------------------------------------------------
    \6\ Global Financial Integrity, ``Transnational Crime and the 
Developing World.'' March 2017.
---------------------------------------------------------------------------
What We're Doing
    Leveraging capabilities like information-sharing, network analysis, 
and the Department of Defense Rewards Program, we support operations by 
DHS and the DOJ's Organized Crime Drug Enforcement Task Forces (OCDETF) 
and Drug Enforcement Administration (DEA) to interdict drug shipments 
and disrupt transnational criminal networks. For example, our 
intelligence support--enabled by our Army Military Intelligence 
Brigade--to operations by Homeland Security Investigations and other 
interagency partners helped dismantle one of the largest maritime 
illicit smuggling networks in Central America last year.
    At the tactical level, JIATF-S continues to deliver steady returns 
on investment and improve its efficiency in targeting drug movements. 
Last year, it helped keep the equivalent of 600 minivans full of 
cocaine off U.S. streets. But even this isn't enough to keep pace with 
the increasing demand and the volume of drugs flowing north through the 
Eastern Pacific and Caribbean. While improving efficiency, we still 
only successfully interdicted about six percent of known drug 
movements.\7\ Doing more would require additional ships and maritime 
patrol aircraft and greater participation by interagency and 
international partners that form the backbone of JIATF-S. The U.S. 
Coast Guard (USCG) and U.S. Customs and Border Protection (CBP) provide 
the bulk of JIATF-S's maritime and air capabilities. The United 
Kingdom, Canada, France, and the Netherlands lead multiple interdiction 
operations in the Caribbean, while we focus U.S. assets on the Eastern 
Pacific. Last year, 17 international partners conducted nearly half of 
the interdictions supported by JIATF-S. U.S. Northern Command remains 
our closest and best Department of Defense partner and we continuously 
look for ways to enhance our teamwork, recognizing that threats exploit 
our geographic combatant command boundaries.
---------------------------------------------------------------------------
    \7\ Figure based on JIATF South utilization of Consolidated 
Counterdrug DataBase (CCDB) data.
---------------------------------------------------------------------------
    Our capacity-building activities, whether at the tactical, 
operational, or institutional level, play a key role in this fight. For 
example, after years of USSOF training, Guatemala's Fuerzas Especiales 
Navales (FEN) is now among Central America's most competent and 
responsive maritime interdiction units. U.S. training, equipment, and 
interagency teamwork have also enabled Costa Rican and Panamanian 
forces to partner seamlessly with the USCG in interdiction operations. 
Partners are also working with us to address their ability to sustain 
capabilities that we have developed together. For example, Colombia has 
increased its eradication and interdiction efforts while also 
conducting increased operations against the ELN.
Drivers of Migration
    Violence, unemployment, corruption, poverty, and impunity for gangs 
and transnational criminal organizations are some of the main drivers 
of insecurity that fuel migration to our southern border. 14 of the top 
20 most violent countries in the world are in Latin America and the 
Caribbean.\8\ Migration challenges are exacerbated by weak 
institutions, corruption, violence and instability wrought by 
authoritarian governments. Migration from Venezuela is on track to 
approach the scale of the Syrian refugee crisis, straining the capacity 
and resources of its neighbors. The United Nations estimates that 5.3 
million Venezuelans will have fled their country by the end of 2019--
with over 2 million leaving this year alone.\9\ Last year, thousands of 
Nicaraguans fled to Costa Rica and other neighboring countries to seek 
protection, a number that will likely grow as President Ortega keeps a 
tight grip on power. Many Haitians continue to leave their country in 
hopes of finding economic opportunity elsewhere.
---------------------------------------------------------------------------
    \8\ Igarape Institute (Regional think tank), ``The World's Most 
Dangerous Cities.'' March 31, 2017 (available at https://
igarape.org.br/en/the-worlds-most-dangerous-cities/)
    \9\ United Nations High Commissioner for Refugees (UNHCR) and 
International Organization for Migration (IOM), December 14, 2018.
---------------------------------------------------------------------------
What We're Doing
    We are working closely with Central American and other partners to 
share information and provide training and equipment that enhance their 
ability to secure their borders. We assist partners in developing 
strong institutional foundations needed for legitimate, effective, and 
sustainable defense sectors through organizations like the William J. 
Perry Center \10\, the Center for Civil Military Relations, and the 
Defense Institute for International Legal Studies, which help our 
partners build trust and confidence with their citizens. Through 
collaboration with the Department of State, USAID, and non-governmental 
partners, our civil affairs teams execute low cost, high impact civic 
action projects that help partner nations and extend governance to 
vulnerable communities.
---------------------------------------------------------------------------
    \10\ The Washington, DC-based William J. Perry Center for 
Hemispheric Defense Studies, one of DoD's five regional centers, 
develops and engages the Western Hemisphere's community of defense and 
security professionals to seek mutually supportive approaches to common 
challenges in order to develop effective and sustainable institutional 
capacity, and promote a greater understanding of U.S. regional policy.
---------------------------------------------------------------------------
                               terrorism
    As Deputy Secretary of State John Sullivan recently noted, 
transnational terrorism poses an immediate threat to the Western 
Hemisphere.\11\ Groups like Lebanese Hezbollah, ISIS, and al-Qaida 
operate wherever they can garner support, raise funds, and pursue their 
terrorist agendas. ISIS and other groups have demonstrated their 
ability to inspire and recruit violent extremists to plan attacks in 
South America and the Caribbean. While the travel of foreign fighters 
from Latin America and the Caribbean to Iraq and Syria has diminished, 
the potential return of battle-trained extremists remains a threat. 
Another potential threat is posed by smuggling networks that move 
Special Interest Aliens from East Africa, the Middle East, and 
Southeast Asia through the hemisphere to attempt entry into the United 
States.
---------------------------------------------------------------------------
    \11\ Remarks at the Western Hemisphere Ministerial on 
Counterterrorism, December 11, 2018.
---------------------------------------------------------------------------
What We're Doing
    USSOUTHCOM leads several annual exercises with interagency partners 
and partner nations to improve interoperability, preparedness, and 
response for a possible terrorist attack. Our neighbors are taking 
increasing steps to address the threat of terrorism in the hemisphere, 
as evidenced by the Caribbean Community's (CARICOM) development of a 
regional counter terrorism strategy in collaboration with the U.S. 
Department of State and USSOUTHCOM. In addition to these efforts, we 
work with the Defense Threat Reduction Agency to help regional partners 
build their capacity to combat weapons of mass destruction, another 
issue of growing interest to several partners.
    We work closely with lead federal agencies and regional partners to 
detect and disrupt terrorist activity and strengthen counter-terrorism 
(CT) legislation. Trinidad and Tobago recently strengthened its CT 
legislation (including the creation of several new terrorism-related 
criminal offenses), and other countries are also updating theirs. In 
collaboration with the Federal Bureau of Investigation (FBI), DHS, and 
other interagency partners, we work with Argentina, Brazil, Peru, 
Chile, and others to share information and strengthen regional capacity 
to manage extremist threats. U.S. training and biometrics equipment are 
improving the ability of partners to control their borders, and in the 
past two years, we've helped interagency partners stop individuals with 
known or suspected ties to terrorism. Additionally, our small civil 
affairs teams work closely with U.S. embassies and USAID to counter 
radicalization and recruitment and amplify moderate voices in local 
communities.
    Detention operations also play an important role in the global 
fight against violent extremism by keeping enemy combatants off the 
battlefield. The medical and guard teams at Joint Task Force Guantanamo 
(JTF-GTMO) continue to conduct safe, legal, and humane detention 
operations. In line with Executive Order 13823, we are examining ways 
to address medical support, capacity, and infrastructure issues 
associated with continued detention operations.
Natural Disasters
    Our ability to respond rapidly in crisis is an important aspect of 
USSOUTHCOM's mission. Our neighborhood experiences approximately 50 
natural disasters every year, of almost every type--from hurricanes to 
earthquakes, volcanic eruptions, wildfires, mudslides, and more. 
Protecting citizens before and after disaster strikes is a core mission 
for every military in our hemisphere. The question is not whether, but 
when, we will face the next disaster, and we must be ready.
What We're Doing
    Last October at the Conference of Defense Ministers of the Americas 
in Cancun, Mexico, the U.S. Secretary of Defense and his counterparts 
from across the hemisphere committed to strengthening regional military 
cooperation on humanitarian assistance and disaster relief in support 
of lead civilian agencies. In support, USSOUTHCOM works closely with 
partner nations, Department of State, USAID, NGOs, and multinational 
organizations like CARICOM's Caribbean Disaster Emergency Management 
Agency (CDEMA) and the Regional Security System (RSS) to build national 
and regional response capacities. Our training, exercises, and low-cost 
humanitarian projects have helped our partners to be more prepared to 
respond to emergencies in their own countries, and more able to assist 
their neighbors in crisis. As an example, last year the Jamaican 
Defense Force deployed a team to Dominica for 60 days to provide 
medical aid and other emergency assistance in the wake of Hurricane 
Maria. We are assessing our authorities to ensure we can provide the 
necessary support for our partners to take on increasing responsibility 
for disaster responses.
    When U.S. military support is required, our forward-deployed JTF-
Bravo in Honduras, along with our annual SPMAGTF deployment, provide 
operational flexibility and agility. I'm proud to note that last year 
we integrated Chilean and Colombian officers into the SPMAGTF 
leadership team for the first time. Brazil will join the SPMAGTF this 
year, in addition to co-leading our UNITAS AMPHIB multinational naval 
exercise. This iteration of UNITAS will practice the establishment of a 
multinational task force to support humanitarian response, a capability 
we haven't employed since the Haiti earthquake in 2010. Building on 
this initiative, we are working with allies and partners to develop a 
concept for a scalable multinational task force that works within 
existing security cooperation frameworks to enhance our collective 
ability to respond rapidly to crises.
  congressional support for ussouthcom's mission and this neighborhood
    I invite you to visit our neighbors and reinforce the message that 
we value this region--the only region that is tied to our homeland by 
all domains--and the role our partners play in keeping our neighborhood 
safe.
    I also thank the Congress for providing the Department's FY 2019 
appropriations prior to the start of FY 2019, which minimized the 
impacts of the current partial government shutdown to the Department of 
Defense. As we look ahead, confidence in stable budgets and ensuring 
all of our U.S. government security partners, like our USCG, are open 
for business will reassure friendly nations that we are reliable 
security partners.
Support for our People
    After several years of running the detention facility at JTF-GTMO 
as a temporary mission, we have been directed to keep the facility 
open. Much of the current infrastructure used by the JTF has long 
outlived its useful lifespan. We are undertaking a comprehensive review 
of the existing facilities to determine requirements for mission 
success, the safety of our forces, and operational efficiency. Closer 
to home, we are working to find ways to better support our personnel, 
including exploring ways to mitigate the limited military support 
services in the Miami area. I will keep this Committee informed of our 
progress.
Capabilities to Defend our Homeland
    We appreciate the support of the Congress to ensure the continued 
operations of the USCG, which provides the majority of U.S. maritime 
assets supporting JIATF-S operations. The new National Security Cutters 
have proven very effective in the drug detection and monitoring 
mission, leveraging increased intelligence collection capability and 
on-scene endurance. Maritime patrol aircraft are also crucial to 
detection, monitoring, and interdiction by the USCG and partner 
nations. Continued congressional support for the new Offshore Patrol 
Cutter will enable the USCG to maintain its capacity in the hemisphere. 
While those new ships are beginning construction, maintenance funding 
is essential to keep the aging Medium Endurance Cutters--some of which 
are close to doubling their planned 30-year service lives--hard at work 
supporting JIATF-S. We also appreciate the support of the Congress to 
resource our intelligence capabilities like human intelligence (HUMINT) 
and innovative analytic tools utilized by the Defense Threat Reduction 
Agency's (DTRA) Joint Improvised-Threat Defeat Organization (JIDO) that 
allow us to exploit publicly available information and intelligence.
    Thanks to congressional support, we contracted a Multi Mission 
Support Vessel (MMSV) to help fill capability gaps. True to its name, 
the MMSV was used for SOF training exercises and will now be employed 
to support U.S. and partner nation law enforcement in CN and CT 
operations. Increased U.S. joint and naval presence in regional 
operations and exercises will encourage partner forces, to include 
navies, to participate in regional security efforts such as HA/DR, CN, 
and CT. The Littoral Combat Ship (LCS) is mission fit for this region 
and we welcome its deployment this year. We are also leveraging our 
growing science and technology portfolio--including innovative projects 
like small-satellite and aerostat surveillance programs--to mitigate 
our intelligence, surveillance, and reconnaissance gaps, and help the 
Services to test new capabilities that hone the U.S. military's 
technological advantage.
Capabilities to Strengthen our Partnerships
    We appreciate congressional support for initiatives that streamline 
security cooperation processes and help ensure we remain the security 
partner of choice. Your continued support to programs and capabilities 
that help build trust and long-term relationships with partners 
enhances our ability to defend the homeland by providing more capacity 
for defeating threats and sending a visible signal to our partners (and 
our competitors) about the depth of our commitment.
                               conclusion
    Partnership goes a long way in this part of the world. The right 
focused and modest investments in this hemisphere yield a solid rate of 
return for the United States and our partners. Our competitors benefit 
when we don't invest in our neighborhood.
    Our partners share our vision of a hemisphere that is a beacon of 
peace, prosperity, and opportunity. They want to work with us to 
achieve this vision. It is in our national interest to work with them. 
Thank you.

    Mr. Maloney. Thank you, Admiral.
    Mr. Padden?
    Mr. Padden. Chairman Maloney, Ranking Member Gibbs, members 
of the subcommittee, thank you for the opportunity to discuss 
the Coast Guard's significant role in drug interdiction in the 
Western Hemisphere.
    As the U.S. Interdiction Coordinator at ONDCP, it is my 
privilege and honor to work with our interdiction and law 
enforcement communities to reduce the availability of illicit 
drugs inside the United States.
    Mr. Maloney. Mr. Padden, excuse me, if I could just ask you 
to speak more directly into the microphone so that Members can 
hear you. If you just pull it--you can pull that box right 
towards you, if you want, that box will move, too. Go ahead, 
sir. Excuse me for interrupting.
    Mr. Padden. Got it.
    Mr. Maloney. Thank you.
    Mr. Padden. Our Coast Guard plays a primary role in the 
interdiction of drugs shipped by maritime means, and it is an 
integral part of the layered interdiction strategy aimed at 
intercepting drugs at all points in the smuggling routes.
    Seven weeks ago, I was privileged to begin serving as the 
U.S. Interdiction Coordinator under the leadership of our drug 
czar, James Carroll. As USIC, my responsibilities include 
coordinating the interdiction activities of the National Drug 
Control Program agencies and developing the National 
Interdiction Command and Control Plan in coordination with The 
Interdiction Committee.
    As we develop our interdiction planning and operations, we 
must ensure that we are reducing the availability of all types 
of drugs that are smuggled from all sources. The Coast Guard's 
maritime interdiction mission remains a principal means of 
intercepting drugs, and an integral part of the overall drug 
interdiction effort.
    The administration's National Drug Control Strategy focuses 
on saving lives and protecting our citizens by reducing both 
the demand for and availability of illicit drugs. It presents 
clear guidance that is focused on the President's drug control 
priorities, which are preventing drug abuse before it starts; 
providing treatment that leads to long-term recovery; and 
reducing the availability of drugs in the United States.
    Availability reduction plays an important role in 
supporting the prevention of drug abuse and the treatment of 
drug addiction. Reduced availability enables public health 
efforts to take hold and increases the potential for successful 
prevention and treatment efforts. Drug availability is reduced 
through eradication, interdiction, and the dismantlement of 
criminal organizations that traffic drugs.
    The strategy maximizes our reduction efforts across the 
spectrum of drug threats. It maintains continued focus on drug 
interdiction at our borders, where drug cartels attempt to 
smuggle methamphetamine, cocaine, opioids, and other drugs 
every day. Strategic emphasis is maintained on Coast Guard and 
partner nations' efforts to interdict multiton quantities of 
cocaine that are shipped by sea from South America to our 
country.
    Following the strategy's guidance, the National 
Interdiction Command and Control Plan coordinates the 
activities of our agencies. The current plan guides our efforts 
across three broad geographic zones: beyond the border; the 
border region; and within the border. The plan emphasizes 
information-sharing between agencies to provide fused 
intelligence that guide our interdiction efforts. Shared 
information and intelligence between our law enforcement, 
defense, and intelligence agencies will continue to drive 
effective interdiction and the dismantlement of criminal 
organizations.
    Coast Guard interdictions provide actionable investigative 
information and evidence to support Federal and State 
conspiracy prosecutions that more fully disrupt and dismantle 
these transnational criminal organizations. The Coast Guard 
investigative service is a significant partner in the joint law 
enforcement programs tasked with this mission.
    The maritime drug threat within the Western Hemisphere 
continues to evolve as drug traffickers travel farther out to 
sea to avoid Coast Guard and partner nation interdictions. 
Traffickers employ semi-submersible and low-profile vessels, as 
well as encrypted communication technologies to avoid 
detection.
    The increased use of containerized shipping to smuggle 
large quantities of drugs must also be addressed in our 
planning. Additionally, there has been an increase in the 
smuggling of opioids and other drugs at postal and express 
consignment ports, at ports of entry, and domestic facilities.
    Given the changes in the drug interdiction environment 
since we last issued the plan, we are working to update it. As 
we update the plan we will ensure that our State interdiction 
agencies have a voice in the process through the HIDTA program 
to more effectively plan interdiction efforts inside our 
borders.
    The maritime interdiction mission remains a primary element 
of the beyond-the-border line of effort. Coast Guard maritime 
interdictions in the Western Hemisphere keep multiton 
quantities of cocaine and other illicit drugs from reaching our 
borders. However, the United States is not the only country 
affected by the surge of illicit drugs, as all nations in the 
region face this threat. We must continue to work hand-in-hand 
with our partner nations to meet the magnitude of the threat 
that we collectively face.
    It is an honor to support the dedicated and courageous 
coastguardsmen who expertly execute the maritime interdiction 
mission every single day. I appreciate the subcommittee's 
attention to the Coast Guard's critical role in the 
interdiction strategy, and I look forward to answering your 
questions.
    [Mr. Padden's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Thomas W. Padden, U.S. Interdiction Coordinator, 
                 Office of National Drug Control Policy
                              introduction
    Chairman Maloney, Ranking Member Gibbs, and Members of the 
Subcommittee, thank you for the opportunity to discuss the U.S. Coast 
Guard's significant role in drug interdiction in the Western 
Hemisphere. As the U.S. Interdiction Coordinator (USIC) at the Office 
of National Drug Control Policy (ONDCP), it is my privilege and honor 
to work with our interdiction and law enforcement communities to reduce 
the availability of dangerous and illicit drugs in the United States 
under the leadership of our U.S. Drug Czar, James W. Carroll. Our U.S. 
Coast Guard plays a primary role in the interdiction of drugs shipped 
by maritime means, and it is an integral part of the layered 
interdiction strategy aimed at intercepting drug shipments outside our 
borders, at our borders, and inside our borders.
                   the u.s. interdiction coordinator
    Protecting our citizens from the threat of dangerous and addictive 
drugs is a mission to which I have dedicated much of my professional 
career. Seven weeks ago, I was privileged to begin serving as the USIC. 
In this role, I coordinate the drug interdiction mission as a part of 
the National Drug Control Strategy (Strategy), and I bring experience 
from 37 years of combined military and civilian Federal service. As a 
career prosecutor for the past 25 years, my civilian service has been 
primarily focused upon the counter-narcotics and organized crime 
mission.
    The USIC's responsibilities, established by 21 U.S.C. 1710(a), 
include: coordinating the interdiction activities of the National Drug 
Control Program (NDCP) agencies; developing the National Interdiction 
Command and Control Plan (Plan) in coordination with The Interdiction 
Committee (TIC); assessing the sufficiency of assets committed to the 
drug interdiction mission by the NDCP agencies; and advising the ONDCP 
Director on the relevant agencies' efforts to implement the Plan.
    As I begin my tenure as USIC, I understand the critical importance 
of working with the Interagency, including the U.S. Coast Guard and 
TIC, to coordinate the evolution of our interdiction planning and 
operations. We must ensure that we are fully reducing the availability 
of illicit drugs of all types and from all sources. The U.S. Coast 
Guard's maritime interdiction mission remains a principal means of 
intercepting drug shipments within the Western Hemisphere and is an 
integral part of the overall drug interdiction effort.
                   the national drug control strategy
    The Trump Administration's National Drug Control Strategy that 
ONDCP issued in January 2019 focuses on saving American lives and 
protecting our citizens from the threat of dangerous, addictive, and 
potentially lethal illicit drugs by reducing both the demand for, and 
availability of, these substances. The Strategy presents clear 
strategic guidance to our 16 NDCP agencies by focusing on President 
Trump's drug control priorities. These priorities are: (1) preventing 
drug abuse before it starts; (2) providing treatment that leads to 
long-term recovery for people with substance use disorders; and (3) 
reducing the availability of dangerous and addictive illicit drugs in 
the United States.
    Under the Strategy, reducing the availability of illicit drugs 
plays an important role in supporting the prevention of drug abuse and 
the treatment of drug addiction. Reducing the availability of illicit 
drugs enables public health efforts to take hold and thereby increase 
the potential for successful prevention and treatment efforts. If it is 
easier to get drugs than it is to get treatment, our public health 
efforts become additionally challenged. Accordingly, our availability 
reduction efforts directly facilitate our prevention and treatment 
programs. The Strategy emphasizes that drug availability is reduced 
through eradication, interdiction, and the dismantlement of the 
criminal networks that traffic these illicit drugs.
    The Strategy is structured to maximize our reduction efforts across 
the spectrum of drug threats. It maintains a continued focus on drug 
interdiction at our borders where drug cartels attempt to smuggle 
marijuana, methamphetamine, cocaine, opioids, and other drugs every 
day. Additionally, strategic emphasis is maintained on U.S. Coast Guard 
and partner nations' efforts to interdict multi-ton quantities of 
cocaine and other illicit drugs and precursor chemicals used to produce 
illicit drugs, as well as drug profits being returned to the drug 
producing countries, that are shipped via maritime and other means from 
South America and intended for the illicit drug market in the United 
States.
           the national interdiction command and control plan
    In accordance with 21 U.S.C. 1710, as amended, a responsibility of 
the USIC is to develop a plan for coordinating the interdiction 
activities of the NDCP agencies, the National Interdiction Command and 
Control Plan (Plan). The existing Plan emphasizes that our interdiction 
lines of effort span three broad geographic zones: (1) Beyond the 
Border; (2) the Border Region; and (3) Within the Border. The Plan's 
emphasis on information sharing between agencies recognizes the 
importance of fused intelligence to guide our interdiction efforts, and 
its emphasis on dismantling and disrupting drug trafficking 
organizations. The Plan also recognizes the importance of coordinated, 
multi-agency investigations and prosecutions. Given the changes in the 
drug interdiction environment since we last issued the Plan in 2015, we 
believe it is essential to update this Plan, which we are developing.
    The U.S. Coast Guard's maritime interdiction mission is a primary 
element of the Plan's Beyond the Border line of effort. Within the 
Western Hemisphere, U.S. Coast Guard maritime interdictions in the 
Caribbean Sea, Gulf of Mexico, and eastern Pacific Ocean are 
responsible for keeping multi-ton quantities of cocaine and other 
illicit drugs from reaching our borders. In Fiscal Year 2017, the Coast 
Guard removed over 223 metric tons of cocaine, and apprehended over 700 
smugglers and referred them to prosecution. As the President has also 
stated, we need to continue working with our partners in the region to 
ensure they are increasing their interdiction efforts. The United 
States is not the only one affected by the surge of illicit drugs. It 
also affects transit countries as well. The United States and partner 
nations must work hand-in-hand to meet the magnitude of the threat we 
face.
    It is important to note that maritime interdictions significantly 
reduce the volume of drugs that U.S. Customs and Border Protection 
(CBP) officers must interdict at our borders and ports of entry. 
Furthermore, these maritime interdictions reduce the volume of drugs 
that other Federal, state, local, and tribal law enforcement agencies 
must seize inside the United States.
    Consistent with the Strategy's approach to drug availability 
reduction, the existing Plan includes emphasis on dismantlement and 
disruption of drug trafficking criminal networks. U.S. Coast Guard 
maritime interdictions provide actionable investigative information and 
evidence to support Federal and state conspiracy prosecutions that more 
fully disrupt and dismantle these transnational drug trafficking 
organizations. The Plan's Within the Border line of effort emphasizes 
the importance of participation in the multi-agency task forces charged 
with attacking criminal organizations. For example, the U.S. Coast 
Guard and its Coast Guard Investigative Service are active and 
significant partners in ONDCP's High Intensity Drug Trafficking Areas 
program and the Department of Justice's Organized Crime Drug 
Enforcement Task Forces program and its Maritime Strike Forces.
    As we update the Plan, we must ensure that it includes and 
emphasizes interdiction of illicit opioids and other drugs at postal 
and express consignment ports of entry and at domestic facilities, and 
that it provides guidance to NDCP agencies to adapt our interdiction 
efforts to address the evolving methods that transnational criminal 
organizations use. These organizations use the dark web, 
cryptocurrency, and other technologically advanced means to traffic 
drugs and hide illicit profits. Given this increasing level of 
technological sophistication, it is important we include our domestic 
interdiction agencies as part of our Within the Border line of effort 
in order to attack the availability of illicit drugs at every point 
along the smuggling routes.
                               conclusion
    The maritime drug threat within the Western Hemisphere continues to 
evolve, as drug trafficking organizations travel farther out to sea to 
avoid U.S. Coast Guard and partner nation interdictions. Transnational 
criminal organizations employ semi-submersible and low profile vessels, 
as well as encrypted communications technologies, to avoid detection. 
Additionally, the increased use of containerized shipping to smuggle 
large quantities of drugs must also be addressed in our planning.
    Shared information and intelligence between our law enforcement, 
defense, and intelligence agencies will continue to drive effective 
interdiction and the dismantlement of criminal organizations. Our 
interdiction planning must be guided by the need to continually advance 
our ability to effectively share relevant information to better 
coordinate multi-agency efforts.
    In my role as USIC, it is an honor to support the dedicated and 
courageous men and women of the U.S. Coast Guard who expertly execute 
the maritime interdiction mission in support of the Strategy. U.S. 
Coast Guard efforts prevent multi-ton quantities of illicit drugs from 
reaching the U.S. user population, and produce the evidence necessary 
to dismantle and disrupt criminal organizations that threaten our 
citizens. I appreciate the Subcommittee's attention to the importance 
of the U.S. Coast Guard's drug interdiction mission.

    Mr. Maloney. I thank the gentleman and we will now proceed 
to Member questions. Operating under a 5-minute rule, I begin 
by recognizing myself for 5 minutes.
    Admiral Abel, Admiral Poulin, I did have an opportunity to 
visit with you all on the JIATF Operation Center down in Key 
West. Very impressive. Terrific international cooperation. It 
is amazing, the missions your Coasties perform, and all the 
partnerships involving other elements of the U.S. military.
    One of the things that strikes me is the fact--you know, 
the vast area that you have responsibility for, twice the size 
of the continental U.S.--including parts of the Eastern Pacific 
is, I think, much more vast than people realize, and much more 
important than the Caribbean, in the scheme of things, in terms 
of interdiction. I am particularly interested in the fact that 
we are finally moving towards some new systems to assist you in 
your mission.
    I know in 2018 is the first time the Coast Guard was able 
to contract for some unmanned aerial systems. Can you tell me 
how that is going? I know it was about a $117 million contract.
    I had the opportunity to serve on the Permanent Select 
Committee on Intelligence in another capacity, and therefore, I 
have a pretty good understanding of our country's extraordinary 
capabilities and intelligence surveillance reconnaissance, our 
ability to persist in surveillance, to identify meaningful 
targets from less meaningful ones.
    What is the opportunity for us to be more efficient, given 
that we are only interdicting 6 percent of known drug 
movements? And can you tell me how that is going, particularly 
on UASs?
    Admiral Abel. Yes, sir. So I am very proud of the fact that 
we have awarded the contract. Every one of our National 
Security Cutters will have embarked a contractor-owned/
contractor-operated system aboard. And our experience is 
typically they bring three or four platforms aboard to make 
sure they meet the availability.
    We are contracting for 180 days, which is what the ship 
typically is underway for. Every single day she is underway she 
will have the ability of the small UAS to do that. That puts 
the technology risk and the tech refresh on the contractor to 
meet our requirements. That is seeing huge advantages. Like I 
mentioned, on cutter Stratton they got 24 interdictions using 
the UAS--not a substitute for manned aircraft, but it certainly 
can complement that.
    We also have a joint customs Coast Guard MQ-9, or predator 
unit, in San Angelo, Texas, that is flying to the gulf coast. 
And right now she is actually deployed along the east coast of 
the United States. We offer pilots and operators--CBP offers 
platforms and the support, and we are both seeing the advantage 
of using those types of systems in the war on narcotics, sir.
    Mr. Maloney. I want to give Admiral Poulin an opportunity, 
as well, but I am curious. Are you tracking--is there a metric 
that we are following on that, in terms of the efficiency per 
interdiction, or per pound of drugs seized? Common sense will 
tell you that they are going to be a more efficient bang for 
the buck once you get that stuff fully deployed, won't it?
    Admiral Abel. Yes, sir. So we are just sticking our toe 
into this business, and so we are going to collect just that. 
Because the question would be, the so what, are we a better 
Coast Guard because--are we catching more drugs? Anecdotally, 
we would say the answer is yes. But we will look for data to 
support that, sir.
    Mr. Maloney. Admiral Poulin, do you want to comment on 
this?
    Admiral Poulin. Mr. Chairman, having overhead surveillance 
and reconnaissance aircraft is absolutely critical to the 
detection and monitoring mission, and end-game interdiction. 
About one-third of all cases involve overhead Maritime Patrol 
Aircraft. The challenge is Maritime Patrol Aircraft have some 
limited duration and dwell time, and they have to return to 
base. There are crew risk factors and so forth.
    So JIATF South is also looking at expanding into land base 
UAS with the MQ-9s. We have got a proposal on the Hill right 
now looking at MQ-9s, likely having two MQ-9s, forward-based in 
AOR, and that is going to provide the persistent coverage that 
we need. We think that we can get those up 24 hours to provide 
persistent coverage----
    Mr. Maloney. And as a percentage of that transit zone, what 
are you going to be able to cover with those? Is it still a 
small percent?
    Admiral Poulin. Well, it will still be a small percentage, 
Mr. Chairman. And I will tell you the playing field has almost 
doubled. So, from what you saw, now we are seeing an increase, 
almost a 60-percent increase in traffic going further south----
    Mr. Maloney. Is it moving----
    Admiral Poulin [continuing]. Past the Galapagos.
    Mr. Maloney. Past the Galapagos?
    Admiral Poulin. So what we thought was the playing field 
has now doubled in size.
    Mr. Maloney. Can I----
    Admiral Poulin. So the persistent ISR becomes even more 
critical.
    Mr. Maloney. So--because I only have less than 1 minute 
left, how about it, Mr. Padden? I read the 2019 Drug Control 
Strategy, all 20 pages of it. I didn't see a lot about UAS in 
there. What do you think?
    Mr. Padden. No, sir. It didn't get specific about UASs, but 
sets the broader strategy that allows for our drug control 
agencies like the Coast Guard to employ the means and methods 
that they think are most effective. UASs would be among those 
ways and means.
    Mr. Maloney. I guess question, sir, would be whether the 
White House and ONDCP is going to push budget resources towards 
that kind of system in the Coast Guard budget. You would be 
hard pressed to find it if you looked in the budget that was 
sent up here a couple of weeks ago.
    Mr. Padden. Yes, sir. We support the President's budget, 
and we support a multipronged and layered effort to interdict 
drugs, which would include UASs in our maritime interdiction 
effort, which is clearly a large piece of our interdiction 
effort.
    Mr. Maloney. Thank you, sir.
    Mr. Gibbs?
    Mr. Gibbs. I thank the chairman.
    All three of you, in your testimony, you talk about how 
important it is to get this in the transit zone and interdict 
these drugs. And it makes a lot of sense.
    And I know Admiral Abel has talked about a 10-percent 
interdiction rate, saves 9,500 cocaine-related deaths in the 
United States, and 67,000 drug-related offenders in U.S. 
prisons. And it goes on.
    Mr. Padden talks about maritime interdiction produces the 
evidence necessary to dismantle and disrupt criminal 
organizations that threaten our citizens. We are all in 
concurrence that this is a very worthwhile project and 
initiative.
    But the budget requests don't seem to reflect that. We see, 
you know--I guess the question to the admiral is why does the 
Coast Guard continually not request to get funding for assets 
to have more interdiction capabilities, higher than 7.4 percent 
that is out there in noncommercial vessels?
    And then, for Mr. Padden, the administration is trying to 
fight this war on drugs. Why is the request essentially $1 
billion less than appropriated levels from a year ago?
    And so I would just comment. Admiral, you go first, and 
then Mr. Padden.
    Admiral Abel. Yes, sir. The Coast Guard's budget for 2020, 
the President's budget, does include a couple of initiatives to 
get after this.
    Number one is the Offshore Patrol Cutter. Hull number 3, 
long lead time for hulls number 4 and 5. There is some money 
for the ScanEagle--that is the small UAS that is on National 
Security Cutters.
    Also there is some innovative stuff in there: a support to 
interdiction and prosecution. These are three-person teams that 
we put in-country to help that country exploit a crime scene 
and make sure there is a rule of law and a consequence within 
their own country. One more of those. We are adding more in 
DOMEX, which is where we exploit the electronics, the cell 
phones, the GPSs, the laptops. Turn that around, that becomes 
the intel, that becomes the 90 percent that feeds the next 
interdiction case.
    So all of that is in there. And finally, we are also adding 
more intel analysts in our commands--in our intel centers to 
get after it, as well. And two more Fast Response Cutters, sir.
    Mr. Gibbs. Just a second, Mr. Padden, I just want to follow 
up a little bit. In your testimony you talked about the 
partnerships you have with these other countries, especially in 
the transit zone. The numbers we are looking at, the 
interdiction, would that partnership--what you just said--could 
we anticipate those levels of interdiction going up? You know, 
because we are well under 10 percent. Could we get up to 
numbers that really make more sense?
    Admiral Abel. Yes, sir, Ranking Member. So the struggle we 
have, of course, is the denominator keeps getting bigger and 
bigger. I mean we are on par this year for our fourth 
consecutive year of 200 metric tons of cocaine. So we are 
catching on a par of what we have caught. We are squeezing 
every efficiency we can out of the existing assets that we have 
on scene.
    But the struggle we have is there is just more and more 
that is coming out there. And like Admiral Poulin mentioned, 
the area of responsibility gets bigger.
    Mr. Padden. Yes, sir. To your question regarding the 
allocation of resources, again we have a multilayered 
interdiction plan interdicting outside of our borders, beyond 
our borders, with the Coast Guard and maritime interdictions 
playing a primary role at our borders and inside of our 
borders. So we support resourcing the interdiction mission in 
all three of those locations, because they are intertwined and 
very, very necessary.
    With regard to our maritime interdictions, as my colleague 
has said, as Admiral Abel has said, we are working to make sure 
that those interdictions that we are making provide the most 
squeeze, or the most juice for the squeeze, to lead us to 
prosecutions that are successful against criminal networks, 
working on targeting those priority criminal networks and 
developing all the evidence that we can for every interdiction.
    Mr. Gibbs. I guess the followup, Admiral, and a thought, 
you just said your--it is exponentially growing, the amount of 
drugs coming. We have made--I know a lot of work, good work in 
Colombia. So where is this increased coca products all coming 
from, then? Is it going--yes, go ahead.
    Admiral Abel. Yes, sir. So Colombia. Colombia made some 
choices on eradication a few years ago, and we are seeing the 
results of that, of--the plants are mature, they are at their 
max production. And therefore, it is almost predictable that 
you would have this amount of production coming from Colombia.
    Colombia is very good partners with us. Sixty percent of 
our critical movement alerts----
    Mr. Gibbs. But the amounts are still increasing from 
Colombia? Is that what I am hearing you saying, that the amount 
of cocaine or coca coming from Colombia is increasing? Is that 
what you are saying?
    Admiral Abel. It is on the rise, sir. Yes, sir. We can get 
you some statistics for the record, sir.
    Mr. Gibbs. OK. I just--that was interesting. Because, you 
know, I thought--I know we are making good work there, but 
apparently we are not winning there still.
    OK, I yield back.
    Mr. Maloney. I thank the gentleman.
    Mr. Pappas?
    Mr. Pappas. Thank you, Mr. Chairman. Thank you very much to 
the panel for answering these questions, and for your testimony 
today, and for all the work that you do to keep us safe and to 
interdict drugs.
    Critically important to my State--we are experiencing the 
opioid crisis about as bad as anywhere else in the United 
States. We have a death rate that is three times the national 
average right now. I was interested in Mr. Padden's comments 
about opioids and the increasing trafficking by boat. I am 
wondering if you could unpack that a little bit and let us know 
what you are observing, and if that also has to do with 
synthetic opioids coming from China.
    Mr. Padden. Yes, sir, great question, sir. The trafficking 
that we are seeing with opioids, especially the synthetics, 
fentanyl and so forth, it is less on the water.
    While there has been an incident or two where fentanyl has 
been seized as part of a maritime interdiction, it is really 
not coming to the United States that way. It is coming across 
our southern border in both powder and pill form, and it is 
coming through our postal and express consignment package 
facilities. And there is increased efforts to work in a 
multiagency manner to target those entry points, particularly 
at the postal and parcel facilities, working with our express 
consignment carriers to help better target those packages 
coming in.
    That is going to be a change in focus and emphasis in the 
upcoming national interdiction plan, as this threat has really 
evolved since the last time that the plan was issued.
    Mr. Pappas. As we focus on the transit zone in terms of 
interdiction efforts, are we missing smaller crafts that are 
bringing shipments of synthetic opioids directly from Mexico to 
the U.S.?
    Admiral Poulin. Sir, if I could take that one, we are not 
seeing increased maritime shipments of synthetic opioids from 
the transit zone. As Mr. Padden said, that is just not the way 
it is shipped. It is usually coming in as a precursor into 
Mexico, synthesized, and then transited or trafficked in other 
ways.
    But I think there is an important point here, sir. Cocaine 
has become the delivery vehicle of choice for synthetic 
opioids. Over 70 percent of cocaine overdose deaths involve 
fentanyl. So cocaine laced with fentanyl, cocaine used with 
fentanyl, et cetera. So it is not easy to just divorce the two 
problems. I think the two problems are inextricably linked. So 
even though we are not seeing any kind of movement of opioids 
by sea, we have got to remain in the cocaine fight.
    Mr. Pappas. I was recently with the captain and crew of the 
cutter Tahoma in Portsmouth Harbor, New Hampshire. And they 
were sharing some of their observations about the increasing 
technology of the cartels, and how it has been difficult to 
keep pace.
    Could you comment a little bit about what we are seeing out 
there with respect to their advancing technology? You mentioned 
UAS and some other innovations that you hope to deploy. But how 
are we going to keep pace over time?
    Admiral Abel. Sir, so these multinational corporations that 
are TCOs are going to leverage every technology they can: GPS 
trackers on their vessels, the drugs, encrypted comms. The good 
news is what they rely on can become a vulnerability.
    So I mentioned DOMEX, which is document and media 
exploitation. We are getting more and more into that business, 
which is taking everything we can off the electronics, turning 
that back around, feeding that in with basically what we get 
from the interviews with the folks, the suspects that we have 
collected. And then that drives what our tactics are for the 
next takedown. So we are using technology to find them, and we 
are using technology against them.
    Admiral Poulin. Sir, if I could just offer that----
    Mr. Pappas. Yes, sir.
    Admiral Poulin. We face a very agile adversary with these 
drug trafficking organizations. They will make adjustments as 
we make adjustments.
    One of the things that we are seeing is a change in tactics 
moving from go-fast to low-profile go-fast vessels, and the 
increased use of semi-submersibles, which are harder to detect. 
And it goes back to the chairman's point, that we are only able 
to detect a small percentage of movement, only target about 20 
percent of movement.
    Mr. Pappas. Well, thank you. I know this committee stands 
ready to work with you to try to get a step ahead and try to 
improve those numbers. So let us know how we can help. Thank 
you.
    Mr. Maloney. I thank the gentleman.
    Mr. Weber?
    Mr. Weber. Thank you, Mr. Chairman.
    Admiral Abel, in your comments earlier you talked about 
three things that were necessary. And you said intel cueing, 
patrol aircraft, and afloat presence. Do you have those divided 
out in the budget, how much money is allocated to each of 
those?
    Admiral Abel. Sir, we can certainly get that for you. I 
know that our aircraft, the helicopters, there is an investment 
this year with our acquisition money to upgrade the 
helicopters. The patrol aircraft, both the C-27s and the C-
144s, are getting sensors and increased capability to do that.
    We are also, on the operating side, we are going to go one 
more helicopter presence with the helicopter that shoots from 
the back of the cutter. We have increased that, as well. And we 
have more intel folks that we are going to be adding on to that 
particular--so we are adding onto the intel side, document and 
media exploitation, helicopters, and then, of course, the 
Offshore Patrol Cutter is the platform that carries them all.
    Mr. Weber. OK, if you don't mind getting me those numbers, 
get with my office a little later.
    You said that the Guard was on track to interdict 200-plus 
metric tons of cocaine seizures. When you do that, if--and you 
also mentioned, I think, cash, and one of you mentioned getting 
the sums of cash, or whatever it was. Where does that money go?
    In other words, if you interdict a drug trade, and the guy 
has got a $100,000 in cash, whatever, where does that money go?
    Admiral Abel. I think Mr. Padden is going to take that one.
    Mr. Weber. OK. He has it in his back pocket, does he?
    Mr. Padden. Yes, sir. Whenever cash is seized, bulk 
currency is seized, whether it is through a maritime 
interdiction, or at our borders, or within the country, it is a 
law enforcement seizure, and it goes through forfeiture 
proceedings. If it is coming from a Department of Homeland 
Security agency, it will go to the Treasury Asset Forfeiture 
Fund. If it comes from a Department of Justice seizure, it will 
go to the Department of Justice's Asset Forfeiture Fund.
    Mr. Weber. I am aware--and I didn't get to shake your hand, 
Mr. Padden, I apologize, I thought we were running shorter on 
time.
    But I am aware of at the local level, for example--I am 
from Texas--when a lot of that money is seized it can go back 
to the different agencies. Do we get that money back to the 
Coast Guard for investment in those kinds of assets? Do you 
know?
    Mr. Padden. Sir, I will find out the answer to that and get 
back.
    Mr. Weber. I mean it would make sense to me. I mean, if we 
are getting--if we are interdicting drugs, and we are getting 
the fruit of their efforts, however small or large that might 
be, it ought to go back to the agency. So you can find that and 
get back to my office?
    Mr. Padden. Yes, sir.
    Mr. Weber. OK. And then, Admiral Poulin, you said--I have 
been to JIATF South. I went--I think it was 1 or 2 years ago 
with the Committee on Science, Space, and Technology on the way 
down to look at some telescopes and stuff down in South 
America. We stopped there on Key West. We went through 
Colombia. And I remember seeing a map of--it looks like the 
targets all around, and you--and they were being tracked.
    So two questions. Have you--do you know the percentages--of 
the governments that are helping us, Colombia, and you can go 
right down the list, and it was quite impressive, by the way, 
the coordination and cooperation as we viewed it--are they 
spending an inordinate amount of money in helping support this 
drug interdiction? Or are we spending the most of it? Do we 
know those percentages from those different countries?
    Admiral Poulin. Sir, we have data on that and I will get 
back to you. But let me answer the question this way. Colombia 
is our strongest partner in the region.
    I recently visited Colombia, I met with the head of the 
Caribbean fleet and also the Pacific fleets. And I tell you 
that the sailors there are fully committed to the counterdrug 
mission. As I mentioned in my opening statement, President 
Duque has increased eradication by over 50 percent.
    And I think there is another point to emphasize here. 
Colombia is just not all in with their treasure and their 
assets. They are in with their blood. Just this past year there 
have been a number of deaths involved with IEDs for those that 
are trying to eradicate the cocaine. I think the number is 8 
deaths and upwards of almost 30 injured, some of those 
permanently disabled because they are amputees. Not only that, 
Colombia is bringing the fight to the ELN, FARC dissidents, and 
drug trafficking organizations, and they are taking casualties, 
sir. So they are a strong partner and they are all in on this 
counterdrug fight.
    Mr. Weber. OK, that is good to hear.
    And then, Admiral Abel, you said also that they are 
starting to rely on more and more electronics. And by doing 
that, it is becoming a liability because we are able to take 
advantage of--explain that. Elaborate on that.
    Admiral Abel. Well, sir, I really can't get into too much 
of that in the unclassified level. I would be happy to give you 
a brief on how we can certainly use it at sea. But then it is 
exploited when it is collected as evidence after the 
interdiction.
    Mr. Weber. Do they get tracking devices on their semi-
submersibles?
    Admiral Poulin. I am sorry. The question again, sir?
    Mr. Weber. Do they get tracking devices on their semi-
submersibles when--you know, semi-submerged?
    Admiral Poulin. Sir, the drug trafficking organizations 
will use whatever technique they can to avoid detection, 
leverage technology. We are trying to leverage technology, as 
well.
    Mr. Weber. OK. Well, I appreciate you all, wish you all the 
best, and we are glad to be somehow able to help. Thank you.
    I yield back, Mr. Chairman.
    Mr. Maloney. I thank the gentleman.
    Mr. Brown?
    Mr. Brown. Thank you, Mr. Chairman.
    I want to thank you for being here today, and your 
testimony. And let me start by just saying that I truly 
appreciate the work of the men and women in the United States 
Coast Guard, and the men and women of the U.S. Southern 
Command, and the work that you are doing on behalf of our 
Nation.
    But this will be the second time in the same number of 
hearings with the Coast Guard where I have expressed grave 
concerns about the extent of what we, as a nation, ask you to 
do. I think you are spread much too thin.
    We heard testimony in the last hearing before this 
subcommittee about your participation in freedom of navigation 
missions to ensure a free and open Indo-Pacific. I just came 
from a National Security Conference in Singapore. I get the 
importance of that mission, but I question whether or not the 
Coast Guard should be in the Strait of Taiwan in the South 
China Sea, when the Navy, which has a budget 200 percent of 
your budget, ought to be doing that.
    Earlier this year Admiral Schultz, in his State of the 
Coast Guard, recognizing that you are a modestly funded 
organization, stated that you are approaching a tipping point, 
and not only because of an aging fleet, but also because of a 
very small operating budget.
    So, while the Coast Guard may have resources to interdict 
20 to 30 percent of drugs flowing through the transit zone, the 
GAO noted that, for the period in fiscal years 2009 to 2013, 
the Coast Guard deployed cutters used for drug interdiction for 
fewer days than planned, and that Maritime Patrol Aircraft 
hours were below target levels. These factors likely 
contributed to the lower actual percentage of cocaine removed.
    Since fiscal year 2009 the Coast Guard has set its own 
internal annual performance target for cocaine removal from 
noncommercial vessels in the transit zone. The Service has 
achieved its performance target only once since fiscal year 
2009. And for fiscal year 2018 the Coast Guard set its annual 
performance target for cocaine removal at 10 percent. This is 
the lowest the Coast Guard has set its annual performance 
targets since fiscal year 2010.
    Several factors impact the ability of the task force to 
meet the drug interdiction performance targets. One of them is 
the inability of allied nations to consistently commit assets, 
and the other is the insufficient inventory of vessels and 
aircraft available to support operations.
    So my question, Admiral Abel and whoever would like to join 
in the response, can you talk a little bit about the allied 
nations' inability to consistently commit assets? And can you 
speak to--and that is probably where I would really like you to 
focus, because I think you have already begun to address the 
insufficient inventory of vessels. But tell us about our allied 
partners.
    Admiral Poulin. Yes, sir. I will go ahead and start.
    We have tremendous partnerships in the region. As I 
mentioned in my opening statement, Interagency Task Force South 
has up to 20 partner nations that are participating with 
representatives in JIATF South, helping us with detection and 
monitoring. We have great relationships with almost all the 
countries in the region that are in some way affected by 
illegal narcotics.
    I will give you a couple of vignettes. Guatemala has made 
maximum use of some of the 37-foot Boston Whalers that the U.S. 
helped them procure. They are taking those Boston Whalers out 
200 miles to interdict illegal narcotics. And we have seen the 
interdiction rates for Guatemala skyrocket. They are being very 
effective. Same with Costa Rica. Costa Rica just participated 
in a joint international operation run by JIATF South. That 
operation, a 45-day operation, interdicted 36 metric tons. 
Costa Rica was involved in 10 of those metric tons.
    Mr. Brown. So let me just jump in here, and I definitely 
appreciate the illustrations of where they are doing well. But 
is it accurate to say that the inability of allied nations to 
consistently commit assets is what is one of the contributing 
factors to our inability to meet performance goals for drug 
interdiction?
    Admiral Poulin. Sir, many of our partner nations have 
limited capacity, just as we have limited capacity to only 
target 20 percent of known movement. So there is a limited 
capacity throughout the region.
    Mr. Brown. OK. You know, I am not trying to get into the, 
like, are they doing 2 percent of the GDP, like we do, you 
know, with our NATO allies in Europe. But if our allies in the 
region aren't doing it, and you guys are spread way too thin--
you are doing a wonderful job, but we are asking you to do a 
little bit too much. We need to get our allies to step up a 
little bit more.
    Admiral Poulin. Yes, sir. And maybe the best way to answer 
the question is that JIATF South is sourced at about 29 percent 
of their ship requirements and about 21 percent of their 
aviation requirements. We need more ships and we need more 
planes. Those can be U.S. ships, U.S. planes, partner nation 
planes, and partner nation ships.
    Mr. Brown. Thank you. And I yield back, Mr. Chairman.
    Mr. Maloney. I thank the gentleman.
    Mrs. Miller?
    Mrs. Miller. Thank you, Chairman Maloney and Ranking Member 
Gibbs. And I want to thank you all on the panel for being here 
today. And I also want to thank you sincerely for the hard work 
you do to protect all of us from this terrible thing that is 
happening.
    Like many communities in the country, my district has been 
ravaged by illegal drugs from the foreign countries. While the 
panel is focused more on cocaine smuggling, I worry about the 
opioids and fentanyl that I feel may soon be entering the 
country in a very similar manner. As President Trump and many 
of us here in Congress work to secure the southern border and 
improve detection technology at the ports of entry, opioid 
smugglers may turn to tactics used by the cartels to traffic 
these dangerous drugs in our communities.
    So my question is very similar to ones that have been asked 
before. Currently, the main illegal drug seized by the Coast 
Guard is cocaine. In my district in southern West Virginia, 
which is ground zero of the opioid epidemic, as the President 
fights to secure the southern border and stop the flow of 
dangerous drugs, is it possible that smugglers of opioids and 
fentanyl will turn to those tactics used by cocaine smugglers 
to transport opioids through the transit zone to the United 
States? And is there anything that Congress can do to help? Any 
one of you.
    Mr. Padden. I will start, ma'am--a great question. As I 
think we said previously, and as you note, we are not currently 
seeing it come by the water, but it certainly is a means that 
could be employed. I think currently what we are seeing--and I 
would defer to my colleagues, my shipmates up here on the panel 
more specifically about the Coast Guard efforts in the Pacific 
side of INDOPACOM. But I think we are seeing precursor chemical 
movements by sea coming from China and the Western Pacific 
region to places like Mexico, where fentanyl is being produced.
    However, the smuggling route of finished fentanyl coming to 
the United States is currently dominantly the U.S.-Mexico 
border. So our efforts to interdict finished fentanyl are 
properly placed along the southern border. And we are 
increasing our efforts at postal and parcel facilities, because 
we are seeing direct shipments from China coming by those 
means.
    I think we do need to keep in mind the potential for the 
sea lanes to be used to move finished fentanyl; we are just not 
seeing it right now.
    Admiral Abel. And we do have a joint task force, Joint Task 
Force West, that is out in Hawaii that looks at precursor 
chemicals coming from Asia. So that pretty much is their focus.
    But, as Mr. Padden said, these smuggling networks, they 
will seek a profit. And if there is a profit in it, and they 
get into this business, then they may be in the business. But 
we are not seeing it right now.
    Admiral Poulin. Yes, ma'am. I, obviously, agree with Mr. 
Padden and Vice Admiral Abel. These drug trafficking 
organizations will take advantage of any opportunity that they 
can, and they will take advantage of the permissive 
environments that exist. So we are watching this very closely.
    Joint Interagency Task Force South has a great relationship 
with Joint Interagency Task Force West, which Vice Admiral Abel 
mentioned. So we are in close collaboration, watching trends. 
We are watching the problem very, very closely, ma'am.
    Mrs. Miller. Vice Admiral Abel, I want to thank the brave 
men and women of the Coast Guard for their tireless efforts to 
stop the flow of the dangerous drugs in our country.
    What are the biggest hurdles that the Coast Guard faces in 
meeting the performance targets for cocaine removal in the 
close future?
    Admiral Abel. Well, probably both--we are looking at 
readiness and recap, which is both of what we need right now. 
Our aging fleet that I mentioned, the fact that cutter 
Dauntless is my age, and I know what my age is, and I am in my 
fifties, and so is she. We need to get on--that is--those are 
the patrol cars of this fight.
    Also, the Coast Guard, on the readiness side, is on the 
operating expenses. As a branch of the Armed Forces we have not 
benefitted from some of the rise in operating budget that we 
would hope. Our fellow services have seen about a 12 percent, 
and the Coast Guard has been about 4 percent.
    We appreciate the recent hurricane supplemental that was 
passed last year, last year's budget. We understand there is a 
supplemental that may get passed soon. We appreciate the House 
and the Senate working on that, as well.
    And I would say the last thing that we are struggling with, 
candidly, is we are still restocking and we are still getting 
dry docks and port side availabilities and parts that we need 
from a 35-day lapse of appropriation. We took a major hit. Our 
goal is to be hurricane-ready this summer, based on the impact 
of that lapse of appropriation.
    Mrs. Miller. Thank you so much.
    Mr. Maloney. I thank the gentlewoman. Before I proceed to 
Mr. Garamendi, I just want to point out for the record my 
colleague from Maryland, Mr. Brown, mentioned that the Coast 
Guard budget--that the Navy budget is 200 percent of the Coast 
Guard budget. I think he meant that it is 20 times the Coast 
Guard budget, north of $200 billion when you factor in OCO 
funding, the base budget of about $170 billion, I believe, in 
the Navy. Yours is about $11 billion requested, so I am sure 
you would appreciate having half the Navy's budget.
    But, excuse me, Mr. Lowenthal has returned. Welcome back, 
sir.
    Mr. Lowenthal. Thank you. I appreciate that. It is good to 
be back.
    Admiral Abel, you know, thank you for your testimony, and 
also for the Coast Guard's continued efforts, as we have heard 
here today, to combat drug trafficking and criminal activity on 
the high seas.
    And I am pleased that in March, Admiral Schultz announced 
that the first two Offshore Patrol Cutters will be home-ported 
at Base Los Angeles-Long Beach, which is immediately adjacent 
to my district. And I thank you for that. And I know these 
cutters will provide the capability that the Coast Guard needs 
to continue this important mission.
    What you have mentioned today and also in your testimony, 
you highlight the importance of partnerships, especially with 
our Central American neighbors, to carry out the Coast Guard's 
drug interdiction mission. As you note, two-thirds of the 
interdictions in fiscal year 2018 were facilitated by an 
agreement with our international partners.
    So I have a question with two parts. First part is what can 
Congress do to support the Coast Guard's efforts to strengthen 
these relationships that you have with our partner countries? 
And I am also concerned about our foreign aid to the Northern 
Triangle countries: El Salvador, Guatemala, and Honduras. Has 
the President's plan to suspend payments to these countries 
affected the Coast Guard's ability to build partnerships? So 
the first one is what can we do, and has the potential shutting 
off of foreign aid to these countries, how will that affect 
your partnerships?
    Admiral Poulin. Sir, let me maybe start responding to that 
question.
    Mr. Lowenthal. Which part?
    Admiral Poulin. The issue of partnerships, sir.
    Mr. Lowenthal. They were all--both partnerships. One is 
what we can do to strengthen them, and the other one is have we 
seen now, with cutting off of foreign aid, going to affect----
    Admiral Poulin. So with respect to what Congress can do, as 
I mentioned in my opening statement, sir, I think it is 
important for Members to get down and meet with our partner 
nations, see what they are doing, get an appreciation, a more 
indepth appreciation for how committed our partner nations are.
    With respect to the second question, sir, about our 
partnerships with Central American nations----
    Mr. Lowenthal. And the cutting off of aid, foreign aid.
    Admiral Poulin. Sir, what I can say is that we maintain 
strong military-to-military relationships with our South 
American and Central American partners.
    I mentioned some of the successes with Costa Rica, the 
successes with Guatemala. We have a forward operating base in 
Soto Cano in Honduras that is critical for us to do all of our 
missions in the SOUTHCOM AOR: humanitarian assistance, disaster 
relief, attacking transnational organized crime. We have got a 
cooperative security location in Comalapa, El Salvador. So our 
partnerships with the militaries in the region are very, very 
strong, sir. Thank you.
    Mr. Lowenthal. Thank you. I would like to ask now Admiral 
Abel. Can you tell me how cutting off our foreign aid 
potentially could impact these partnerships? And what should we 
do, here in Congress?
    Admiral Abel. Well, sir, as far as what Congress can do to 
help these partnerships, the first part of your question, step 
one would be presence matters in these countries, which means 
the Coast Guard needs the aircraft, the small boats, the larger 
ships to do that.
    Also, the fact that, as we recap, we are finding with Costa 
Rica excess defense articles--which is a nice way of saying our 
retired cutters--become a major force multiplier for these 
countries. So, as we recap, we can hand down these assets and 
the support with that, as well, sir.
    So Steve mentioned the mil-to-mil relationship we have with 
these countries. That is still very tight, and we still see a 
unity of effort----
    Mr. Lowenthal. I just have 1 minute left, so I want you to 
follow--have you noticed anything with the President saying 
that we are going to cut off foreign aid to the Northern 
Triangle countries--has that impacted our relationships? And 
that is to Admiral Abel.
    Admiral Abel. Sir, I don't work with these countries on a 
daily basis. I do not know of any change in our relationship 
with them. Admiral Poulin certainly is a lot closer with them.
    Mr. Lowenthal. Well, I would like to follow that in the 
future.
    Thank you, and I yield back.
    Mr. Maloney. Mr. Larsen, do you have any questions, or are 
we proceeding to Mr. Garamendi?
    Mr. Larsen. I will pass. I have got a markup at 11 o'clock. 
So I will pass and follow up with QFRs.
    Mr. Maloney. I thank the gentleman. The gentleman from 
California is recognized.
    Mr. Garamendi. Mr. Larsen, thank you very much. I owe you 
one. And I know you will collect an additional one.
    I want to get at this issue that was just raised by Mr. 
Lowenthal. There is a very serious question of priorities. In 
fact, Mr. Lowenthal, we do make choices here. And we make those 
choices in conjunction with the President. The President 
intends to spend some $8 billion building a wall. And the 
question really revolves how best to spend our taxpayer 
resources. Is it best to spend it on a wall?
    So therefore, the question of cocaine into the United 
States, does it come via the ocean, the water, or does it come 
via the land? And if it comes via the land, how does it get 
here? This is a question for Mr. Padden.
    Mr. Padden. Yes, sir. Thank you. Cocaine is flowing to our 
country, both on the water and across our borders. So it is not 
exclusively----
    Mr. Garamendi. When it comes across the borders does it 
come through the ports of entry, or does it come through a 
trail across a desert?
    Mr. Padden. It comes predominantly through the ports of 
entry. But it does come from all points across the border.
    Mr. Garamendi. What does predominantly----
    Mr. Padden. Organizations do----
    Mr. Garamendi. What does predominantly mean? Is that 70, 
80, 100, 90 percent?
    Mr. Padden. I am sorry, sir. Could you repeat the question?
    Mr. Garamendi. You used the word ``predominantly'' through 
the ports of entry. Put a percentage to that.
    Mr. Padden. I will need to get back to you with a more 
accurate percentage, but it is----
    Mr. Garamendi. Take a shot. You used ``predominantly.'' I 
suppose that is more than 50 percent.
    Mr. Padden. More dominantly, I would say over 80 percent is 
coming through the ports of entry.
    Mr. Garamendi. Ports of entry. So if we are going to deal 
with drugs entering the United States through the land, then it 
is really the ports of entry that we need to spend the money 
on. Is that correct?
    Mr. Padden. Sir, as I have testified before----
    Mr. Garamendi. Let me just say my view is that is correct. 
If it is 80 percent of the drugs are coming through the port of 
entry, spend your money--spend 80 percent there, not 100 
percent or 80 percent on the walls.
    Secondly----
    Mr. Padden. Sir?
    Mr. Garamendi. With regard to the oceans, it was said that 
some 20 percent--the Coast Guard is able to interdict some 20 
percent. That was 19, 17, 20 percent, in that range. Let's just 
say 20 percent. Is that OK, about right?
    Admiral Abel. Sir, right now we intercept and action 20 
percent of the known drug flow that we know about.
    Mr. Garamendi. And then there is more that you don't know 
about. But OK, let's just say 20 percent. So that means you are 
doing some 200 metric tons--so we have some 800 to 1,000 metric 
tons of cocaine coming into the United States through the 
oceans. Is that correct?
    Admiral Abel. Sir, every day JIATF South has to make trade-
off decisions. They have five or six vessels that they can 
action, and they have probably got 20 to 25 known targets with 
intel that they are moving in the transit zone.
    Mr. Garamendi. So, once again, this is about choices. And 
we make those choices, as well as the President. The President 
has chosen to spend some $8 billion on border walls, some 
smaller amount on enhancing the ports of entry. And yet we have 
some 800 metric tons of cocaine that is not interdicted that 
enters over the water. I think that is about the way the 
percentages work out.
    So if we are interdicting 200 metric tons, and that is 20 
percent, then we ought to multiply by 5, which would give us 
something near 1,000 metric tons. Correct?
    Admiral Poulin. Well, sir, we----
    Mr. Garamendi. Well, that----
    Admiral Poulin. I want to be careful on the statistics, 
because about 60 percent of movement out of the Andean Ridge 
lands first in Mexico or Guatemala. So there aren't direct 
shipments, per se, to the United States. There are some, but 
most of it first lands in either Mexico or Central America.
    Mr. Garamendi. And then you interdict both after it leaves 
Guatemala, as well as when it gets to Guatemala. You interdict 
both sides of it. So the point is still there is about 800 
metric tons of cocaine that you don't interdict. And we have 
already heard testimony that your budget is insufficient.
    It is just a matter of choices. What I am making here is an 
argument that we are spending the money in the wrong place.
    Admiral Poulin. Yes, sir.
    Mr. Garamendi. I want to----
    Admiral Poulin. To be clear on that, the statistics, we 
target--we can only target 20 percent of known movement. The 
interdiction is 6 percent.
    Mr. Garamendi. Well, that makes my numbers even more--in 
any case, it is a question of choices. And what is going on 
here is the U.S. Government is making the wrong choice. It is 
spending the money in the wrong place. If it is about drugs 
then we have got to spend the money with the Coast Guard, and 
we have got to spend the money helping those countries--
Guatemala, Colombia, and the Central American countries--beef 
up their own police, which you have made the argument already.
    My time is up. Thank you very much, and I appreciate Mr. 
Larsen's----
    Mr. Maloney. I thank the gentleman. We have time for a 
second round of questioning, so I would proceed to that round, 
5 minutes each. I would recognize myself for 5 minutes.
    Gentlemen, just following up on that point, how many Coast 
Guard personnel are currently deployed to the southern border 
as part of recent border security operations?
    Admiral Abel. Yes, sir. As of this morning we had 155 Coast 
Guard members that are down there: medical team, general 
purpose, helping on the border. We have a helicopter that is 
occasionally flying from Corpus Christi, and some small boats 
that are running up and down the Rio Grande, sir.
    Mr. Maloney. And what would that typically be? What does 
that represent, in terms of what would normally be deployed? Is 
anything normally deployed from the Coast Guard?
    Admiral Abel. No, sir. This is unique, but----
    Mr. Maloney. So that is a new mission for the Coast Guard.
    Admiral Abel. This is why there is a Department of Homeland 
Security. We are helping our shipmates in CBP and Border 
Patrol, just as their P3s helped us in the hurricane last fall 
and last summer. We are helping them. Out of a force of 42,000 
active, 8,000 civilian, and 6,600 Reserves, I think 155 is a 
reasonable number, sir, and we are not seeing a huge impact on 
our operations.
    Mr. Maloney. I understand. What would those personnel 
normally be doing?
    Admiral Abel. Sir, the helicopter crews are deploying out 
of Corpus Christi; that is their home. The boat crews are from 
maritime safety and security teams from all around the Nation. 
They are bringing boats and bringing their capacity down there. 
As far as the general purpose that are helping in the actual 
processing centers, those are volunteers from around the Coast 
Guard.
    Mr. Maloney. And let me ask you a different version of Mr. 
Garamendi's question, because I don't want to put you on the 
hook for making policy decisions that aren't yours to make, or 
that you are simply in the position of having to implement--and 
quite properly so, that is your job. But if I gave you $1 
billion in addition to the $11 billion you have requested, what 
would we do with that $1 billion?
    Admiral Abel. Sir, it would have to be a mix of operations 
and recap, because both of those are what we are struggling 
with right now. The day-to-day maintenance of aging assets, 
getting what we need for our workforce, as well as buying the 
future of the Coast Guard. So it would be recap, as well as 
operations.
    Mr. Maloney. And if I gave you $1 billion simply for drug 
interdiction efforts specifically--so forget the Polar Security 
Cutter and the other things that we all care about up here, as 
well. But if we were just talking about drug interdiction, if 
we were talking about border security more broadly, what would 
the Coast Guard do with $1 billion?
    Admiral Abel. Sir, I mentioned the Offshore Patrol Cutters. 
We have got to get after that. That is--those Medium Endurance 
Cutters, 70 percent of the presence, they are aging, they are 
expensive. We are losing the operational days on those. We have 
to get after that.
    Aircraft, I mentioned the triangle. Intel aircraft, patrol 
aircraft, and then the helicopters on the back of the cutter, 
as well as the small boats on the back of the cutter. All of 
those need investment.
    Mr. Maloney. Well, your entire drone program is $117 
million, isn't that correct? The entire drone program, the UAS 
we were speaking about earlier, it is $117 million at this 
point, right?
    Admiral Abel. Yes, sir. That is a multiyear contract, 
though. That is not just this year. But it is an investment in 
the future. Yes, sir.
    Mr. Maloney. Thank you, great point. So how many years is 
that over?
    Admiral Abel. I can get back with you. I believe it is a 7-
year contract, but I can get back with you on the terms of the 
contract. I am not----
    Mr. Maloney. We could increase our unmanned aerial 
capability by an order of magnitude with several hundred 
million dollars, let alone $1 billion. Fair to say, right?
    Admiral Abel. We would need the platforms that they operate 
from, though. We--the smaller cutters don't have the room to 
have a UAS and a helicopter. And certainly the armed helicopter 
is part of the----
    Mr. Maloney. I understand the complexity, Admiral. I am 
talking about $1 billion. We could have contractor-owned-and-
operated systems that don't even involve Coast Guard ships, 
right? We could have a series of platforms out there, or 
barges, or contractor-operated vessels that were operating 
drones that were just feeding intelligence to the Coast Guard 
operation center JIATF, right?
    You would be happy to have the data, right? And if we were 
better at distinguishing it, we could increase the number that 
Admiral Poulin has talked about if we also had the assets to go 
get them. Isn't that fair to say?
    Admiral Abel. Yes, sir. And, as I mentioned, we already 
have experience with the MQ-9 with the joint unit that we have 
with Customs.
    Mr. Maloney. In fact, one of the great capabilities you 
have are those kids who run those boats out and shoot the 
motors out of those drug vessels. I got to meet some of them. 
But when you think about it, there is no reason we couldn't do 
that with an unmanned platform in the future, isn't that 
correct? With the right eyes-on, human operator, but remotely 
operating an unarmed drone, we could do that, too, couldn't we?
    Admiral Abel. Sir, I really don't want to speculate about 
use of force. It took a lot to get Department of Justice 
approval for the armed aircraft that we have, and the accuracy 
of our marksmen, and to make sure that there is no collateral 
damage when we do employ use of force.
    Mr. Maloney. Yes, that is right. But a kid in the back of a 
boat with a gun shooting out a motor is not a lot different 
than a kid with a joystick operating a gun on a drone, just for 
the record. Because they are both highly trained and highly 
capable and follow extraordinarily rigid procedures around use 
of lethal force.
    So Mr. Padden, just put in a plea for the fact that--the 
point Mr. Garamendi, I believe, was trying to make is that 
these dollars we are throwing at border wall construction that 
are coming out of other military priorities are desperately 
needed in the drug war that is being fought right now by the 
gentlemen to your left.
    But I see my time is expired. Mr. Gibbs?
    Mr. Gibbs. Thank you. One thing I would just say, we have 
heard a lot about how you are increasing your capabilities to 
gather intelligence and everything. That is good. But the 
problem is if you don't have the assets to go on and interdict 
before you get the intelligence, it is counterproductive.
    The Offshore Patrol Cutters, there was the 2019 budget 
hearing for recapitalization--awarded a contract for the OPC. 
And there was supposed to be a report last Friday--because we 
had the hurricane go through there, it was being--and the 
surrounding area was being built--and the report was supposed 
to talk about the delays and the cost overruns. Did that 
report--is it finalized?
    Admiral Abel. Yes, sir. I am not the acquisition expert 
here. But as the operator I can tell you we do need the OPC. 
The material was submitted from Eastern Shipbuilding. It is 
being reviewed by the United States Coast Guard, and we will 
make the decision that is in the best interest of the United 
States Government, based on the material we have received.
    Mr. Gibbs. Will that report be submitted to the committee, 
the report that was supposed to be due last Friday?
    Admiral Abel. Sir, it has some contract-sensitive material. 
We certainly can consider such.
    Mr. Gibbs. OK. I got other--I am trying to get through 
this, but we had the High Endurance Cutters, mostly at the end 
of their useful life, right? And then the OPCs are going to 
replace them, if I got that right. And then the Medium 
Endurance Cutters. And then we have the question about 
maintenance on them to extend their life for them while we 
wait. And so there are all these other vessels.
    I guess my question is on the medium cutters, close that 
gap--the OPCs are built, you know, what are we doing to help 
close that gap, and how many days conducting those missions are 
currently lost each year--the unavailability of the Coast Guard 
assets planned and mission days?
    Admiral Abel. Yes, sir. As I mentioned, last year we lost 
300 cutter days. That is equivalent to two cutters.
    The two dozen vessels that constitute the Medium Endurance 
Cutter fleet, the 210-foot cutters circa 1960s, we don't see a 
need to recap or do any service-life extension on them.
    The 270s, which are circa 1980s, we do have a plan to do a 
service-life extension program. In fact, in our 2020 budget it 
is about $11 million to start that program. The goal was the 
first one of those hulls will go into that program in 2023. We 
are dovetailing it closely with when the OPCs should be showing 
up, so we don't see too much of a dip in capacity. And we 
anticipate the Coast Guard yard in Curtis Bay will do the work 
on major systems of the 270s that need to have a recap. That is 
our plan at this point, sir.
    Mr. Gibbs. OK, because I am just trying to drive home the 
fact that we need to get more assets out there, so we got to 
have--I think one of the criticisms that can be made--the Coast 
Guard's long-term planning issue--hasn't been any long-term 
planning where it really should be.
    Is there any capability from contracting or leasing vessels 
from the private sector? Like, for example, the oil and gas 
industry, if there is a little bit of downturn there, to help 
the Coast Guard get more assets out there with Coast Guard 
crews to get the vessels that--to kind of fill a void? Is there 
any consideration of that, or is that a possibility?
    Admiral Abel. Sir, we certainly could take a look at that. 
There are some issues, being a warship, a law enforcement 
vessel from which you do use of force and things like that. I 
know our friends in JIATF South do have a leased vessel that is 
doing logistics to enable the Coast Guard cutters to remain on 
station and be more effective.
    Admiral Poulin. Sir, if I could just add to that, the naval 
combatants are absolutely essential to the detection and 
monitoring and end-game mission. I mentioned before that we 
need more ships and aircraft.
    Mr. Gibbs. Yes.
    Admiral Poulin. We need more Navy ships and we need more 
Coast Guard ships. We are very pleased that we will likely get 
a littoral combat ship working for the SOUTHCOM in the SOUTHCOM 
AOR this year. I was just up in Mayport, I got a chance to tour 
the littoral combat ship with Admiral Faller. I think that is 
going to be an incredible capability. Still not enough, but, 
again, we are looking for ways to shore up those gaps that we 
have in maritime assets.
    Mr. Gibbs. OK. Just one quick question. We talked about the 
communication systems, the deepwater legacy. What is the status 
of that? There was talk previously in previous hearings about 
that, and I didn't know if it had really been implemented, or 
what is the status----
    Admiral Abel. You are saying as far as communication 
systems to and from our cutters?
    Mr. Gibbs. Yes, the whole integrated system.
    Admiral Abel. Yes, sir. Obviously, like any modern 
organization, you know, IT is your spinal cord. And if you 
can't connect, you can't play.
    Mr. Gibbs. That is right.
    Admiral Abel. This budget, our 2020 budget, is the first 
time the Coast Guard has put dedicated acquisition money in 
there to recap our mission enterprise, which is how we can act, 
how the system works, the backroom stuff. We are looking at 
using the cloud, all these various ways of doing it. But we are 
going from just repairing the existing software and hardware we 
have to recapping and looking the next generation forward to 
make sure that spinal cord is well connected amongst our 
assets.
    Mr. Gibbs. Which I think would be really essential in the 
interdiction efforts, correct?
    I yield back.
    Mr. Maloney. Thank you. I thank the gentleman.
    Mr. Lowenthal?
    Mr. Lowenthal. Yes, I will be brief. I think we have done 
an excellent job, the panel, in terms of talking about the 
needs of the Coast Guard, unmet needs, what the budget will 
entail.
    Also, on the importance--I think Admiral Poulin and also 
Admiral Abel talking about the importance of relationships with 
our Central American neighbors. I want to--and I think we have 
done--adequately covered that.
    But I want to switch the topic a little bit, because I 
think, Admiral Poulin, you mentioned in your testimony the 
expanding influence of Russia and China in our hemisphere. And 
we really haven't talked that much--and I am particularly 
concerned, as one who represents the port area of Long Beach, 
and--China's investments in ports and maritime infrastructure, 
especially around the Panama Canal.
    Can you tell us what you are doing to combat this, what 
SOUTHCOM is doing to promote transparency, and how you are 
dealing with this growing presence of both Russia and 
especially China in our region? Explain that to us.
    Admiral Poulin. Thank you for the question, sir. We are 
very concerned with the growing influence of both China and 
Russia in the SOUTHCOM area of responsibility, the Western 
Hemisphere.
    Mr. Lowenthal. Yes.
    Admiral Poulin. I did bring with me two placemats that 
capture what we see as the growth and influence, and I am happy 
to share these with the committee, and I will leave these 
behind.
    Mr. Lowenthal. Thank you.
    Admiral Poulin. But what we are seeing is an increased 
intent to sort of crowd out the United States as a partner of 
choice in this region.
    If you look at China alone, to your point about port 
investments, they have invested in about 60 port projects in 
the region. That is significant. They are----
    Mr. Lowenthal. How many projects have we supported?
    Admiral Poulin. What I can tell you is 60 port projects is 
a lot, and they are on both sides of the Panama Canal, sir.
    Mr. Lowenthal. Got it.
    Admiral Poulin. So it is a great concern to us. The amount 
of investment that they are doing in infrastructure, the IT 
investment from Huawei and ZTE, which creates complications for 
us because that is now becoming a backbone of the IT 
infrastructure for many of our partner nations, compromises our 
ability to get in there and work with them about security 
concerns.
    Russia's malign influence is growing, as well. They are 
mounting a huge disinformation campaign, changing the narrative 
about the goodwill and the good work that the United States is 
doing.
    China is supporting the Venezuelan regime. They are the 
largest creditor of Venezuela, $20 billion in loans and about 
$1 billion in providing military equipment.
    Russia and Cuba are malign actors, as well, that are 
propping up the illegitimate Maduro regime.
    So those are just some small examples of how concerned we 
are about their influence. What we can do about it, sir, is we 
become good partners. Presence matters. Presence matters a 
whole lot. We need to continue to do international military 
education and training to make enduring partnerships in the 
region. We need to continue to be present with assets. We need 
to continue to be present with our special operations forces 
doing training. Military-to-military engagement and persistent 
presence is absolutely essential to making sure that we retain 
our status as a partner of choice and limit opportunities for 
malign influence by Russia and China.
    Mr. Lowenthal. I want to ask Admiral Abel--I say again 
that, as I said before, the cutting off of foreign aid at a 
time when we are watching our enemies investing tremendously in 
this region is very frightening to me.
    Admiral Abel, do you have anything else to add?
    Admiral Abel. So just to add on to what Admiral Poulin 
mentioned, the Coast Guard offers a very good model for these 
partner countries. If we have some excess defense articles that 
we can transfer to them, we can teach them on the maintenance, 
and if they model their coast guards or their navies like the 
United States Coast Guard, that is a good fit. The United 
States Navy, with large ships, is pretty intimidating. It is 
not a model that fits well with many of these Central and South 
American countries.
    So the nation-building that our Coast Guard can do is just 
that, a force that is a little law enforcement, a little search 
and rescue, a little marine environmental protection. And the 
goal would be let's model that kind of a service for these 
countries, a maritime protection service.
    Mr. Lowenthal. But you are also seeing the rise of China 
and Russia in the region. Is that not true?
    Admiral Abel. Absolutely, sir. I think Admiral Poulin 
characterized it well, which is checkbook diplomacy, as well as 
trying to squeeze out the United States. We need to be the 
partner of choice in this hemisphere.
    Admiral Poulin. Yes, sir. And if I could just add, the 
predatory lending practices of China are profound. About 19 of 
33 countries in the region have joined their Belt and Road 
Initiative. That is a huge concern of ours.
    Mr. Lowenthal. Thank you, and I yield back.
    Mr. Maloney. I thank the gentleman. Are there any further 
questions from members of the subcommittee?
    Seeing none, I would like to thank the witnesses for their 
testimony.
    I would like to ask unanimous consent that the two 
placemats provided by Admiral Poulin be made part of the record 
of today's hearing.
    Without objection, so ordered.
    [The information is on pages 47-49.]
    Mr. Maloney. I would also point out to the members of the 
subcommittee and to others that the subcommittee will be 
holding a hearing on China and the One Belt, One Road 
Initiative, particularly in the region, and the relevance for 
the issues of concern to this committee, which are many. But I 
appreciate the gentleman's comments very much.
    I would also ask unanimous consent that the record of 
today's hearing remain open until such time as our witnesses 
have provided the answers to any questions that may have been 
submitted to them in writing.
    And further, unanimous consent that the record remain open 
for 15 days for any additional comments or information 
submitted by Members or witnesses to be included in the record 
of today's hearing.
    Without objection, so ordered.
    If no other Members have anything to add, I would like to 
thank the witnesses again for their service, for their 
extraordinary contributions to our country, to our Nation's 
security, to the war on drugs. I appreciate the participation 
of Mr. Padden, as well, of ONDCP.
    And with that, the hearing stands adjourned. Thank you.
    [Whereupon, at 11:22 a.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chairman Maloney.
    The Coast Guard, working through SOUTHCOM, leads the U.S. effort to 
remove drugs from the Transit Zone between the United States and South 
America.
    Seizing drugs in the Transit Zone--in their purest form and closest 
to the source--is the most cost effective and efficient way to use U.S. 
law enforcement assets. The Coast Guard is the only Armed Service with 
law enforcement authority.
    Unfortunately, the Coast Guard and its SOUTHCOM partners act on 
only a small percentage of known drug movements. This is part of the 
Coast Guard's overall challenge of carrying out an expansive number of 
missions with very limited resources.
    In recent years, both the Service's target rates and actual rates 
for cocaine removal have been dropping, which is disheartening. In FY 
2018, they dropped their target to 10 percent, and removed only 7.4 
percent of cocaine from the transit route.
    These drugs are eventually making their way into communities across 
the U.S. and devastating families and lives in the process.
    I look forward to hearing from the witnesses. I yield back.

                                 <F-dash>
  U.S. Southern Command Graphics Illustrating Growth and Influence of 
  China and Russia in Western Hemisphere, Submitted for the Record by 
                              Hon. Maloney

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                Appendix

                              ----------                              


  Questions from Hon. Sean Patrick Maloney for Vice Admiral Daniel B. 
        Abel, Deputy Commandant for Operations, U.S. Coast Guard

    Question 1. At the hearing on June 4th, we discussed the Coast 
Guard's drone program consisting of a contract of $117 million over 7 
years. Could you describe how this program compares with the other 
branches of the military as well as elaborate how the service could 
better utilize UAS?
    Answer. The Coast Guard's UAS program is similar to the US Navy's 
in that it utilizes a service contract for contractor-owned and 
contractor-operated UAS. This model has proven efficient for the Coast 
Guard's smaller fleet size as compared to the Air Force or Army's 
larger government-owned and government-operated programs, which have 
additional personnel and logistics requirements.
    The Coast Guard is having very positive initial results with the 
Service's National Security Cutter (NSC) UAS operations and is looking 
at ways to leverage a similar capability on the Polar Security Cutters 
and Offshore Patrol Cutters. These new Cutters are being designed with 
the necessary space, weight, and power capacity to support UAS 
platforms. The Coast Guard has also initiated a proof of concept 
operation to determine how the UAS capability could be utilized 
operating from land-based facilities.

 Questions from Hon. Bob Gibbs for Vice Admiral Daniel B. Abel, Deputy 
              Commandant for Operations, U.S. Coast Guard

    Question 2. Following up from the hearing, you mentioned that you 
would provide statistics behind the increase of cocaine coming from 
Colombia. Please provide that information.
    Answer. The data provided by VADM Abel during his testimony on June 
4, 2019, reflected the continued increase in coca cultivation / 
production potential from 2012 through 2017 as reported by the White 
House Office of National Drug Control Policy (ONDCP). Three weeks after 
VADM Abel's testimony, ONDCP released a report on 2018 data, stating 
that coca cultivation, while remaining at historically high levels, 
leveled off slightly in 2018, as stated in the report excerpt below:
    ``The estimate states coca cultivation in Colombia saw a minor 
decrease in 2018 to 208,000 hectares from 209,000 hectares in 2017. 
Similarly, potential pure cocaine production also saw a minor decrease 
in 2018 to 887 pure metric tons from 900 pure metric tons in 2017. 
Although coca cultivation in Colombia remained at historically high 
levels in 2018, it was the first year the crop did not increase since 
2012.''
    This data shows a 0.5% decrease in estimated coca cultivation and a 
1.4% decrease in production potential from 2017 to 2018.
    Colombia consistently ranks atop three coca-producing countries. 
According to the Intelligence Coordination Center (ICC), Colombia 
produces about twice the amount of cocaine than Peru produces and 
triples Bolivian production. ONDCP expects to complete official 2018 
production analysis for Peru and Bolivia later this month, which ICC 
expects, will be in alignment with previous years' analysis and confirm 
production estimates.
    ONDCP's full breakdown of Colombia data analysis is below:

----------------------------------------------------------------------------------------------------------------
         2008      2009      2010      2011     2012     2013     2014      2015      2016      2017      2018
----------------------------------------------------------------------------------------------------------------
Culti   119,000   116,000   100,000   83,000   78,000   80,500   112,000   159,000   188,000   209,000   208,000
 vati
 on
(Hect
 ares
 )
----------------------------------------------------------------------------------------------------------------
Produ       320       315       280      220      210      235       324       545       776       900       887
 ctio
 n
Poten
 tial
(Metr
 ic
Tons)
----------------------------------------------------------------------------------------------------------------

    The Coast Guard assesses Colombia is the coca source for the vast 
majority of its cocaine removals. The Drug Enforcement Administration's 
Cocaine Signature Program conducts in-depth chemical analysis of 
cocaine exhibits obtained from bulk seizures. According to the DEA CSP 
2019 report, the CSP assesses, with 96% accuracy that 90% of domestic 
cocaine seized and tested in 2018 originated in Colombia. JIATF-S 
analysis of known cocaine flow supports this figure. Approximately 94% 
of JIATF-S known flow (trafficked via maritime and air routes) 
originates from, or in close proximity to Colombia, via the eastern 
Pacific, western and central Caribbean.
    To date, the Colombian bilateral agreement has been enacted 33 
times resulting in removal of 36MT of cocaine. Of the 522 suspected 
smugglers detained by the USCG in 2019, 26 percent were Colombian 
nationals.

  Questions from Hon. Randy K. Weber, Sr., for Rear Admiral Steven D. 
         Poulin, Director of Operations, U.S. Southern Command

    Question 1. At the hearing on the 4th of June, I asked if you knew 
the percentages of what other countries are contributing to 
interdiction efforts as well as whether they are spending an inordinate 
amount of money in helping drug interdiction efforts or if the United 
States is spending most of it. You indicated that you would get back to 
us with that information. Please provide that information.
    Answer. Unfortunately, I cannot give you the amounts that each 
individual country is spending out of their own budgets toward drug 
interdiction, as that information is proprietary to each nation. 
However, I can tell you that we have very willing partners in this 
region, especially as the drug crisis directly impacts their own 
national security. The drugs that eventually end up on the streets of 
Texas, burn a path of violence and corruption through our partner 
nations (PNs), making this an existential threat for them. Our partners 
are committed to addressing this threat with support from the United 
States.
    I can, however, give you an idea of what US Southern Command is 
spending to build our partners' capacity to counter the drug threat. 
The majority of our programs are designed to provide mitigation against 
one of our primary shortfalls--lack of maritime assets (both ships and 
planes). In the execution of our statutory mission to detect and 
monitor illicit drug traffic, we identify targets, but have limited 
capability to respond and interdict them. Our PN programs help fill 
that gap by building their capacity to interdict the targets that we 
identify. In calendar year 2018, PN participation was critical to 40% 
of all interdiction/disruption cases, stopping almost 120MTs of cocaine 
worth $1.8B from reaching our streets. That translates into 
approximately 840 lives saved.
    Below is information on our FY19 counterdrug programs:
    In Central America, the total funding directly supporting PN 
interdiction efforts is $41,818,000. The focus areas for these 
countries are border security, maritime and ground interdiction; 
Intelligence, Surveillance, and Reconnaissance (ISR); and Command and 
Control (C2).
    In South America, the total funding directly supporting PN 
interdiction efforts is $23,947,000. The focus areas for these 
countries are ground and maritime interdiction, ISR, information 
sharing, and riverine interdiction.
    In the Caribbean, the total funding directly supporting PN 
interdiction efforts is $5,947,000. The focus areas for these countries 
are ground and maritime interdiction and border security.

     Questions from Hon. John Garamendi for Thomas W. Padden, U.S. 
    Interdiction Coordinator, Office of National Drug Control Policy

    Question 1. At the hearing on June 4th, you stated that when 
cocaine crosses the border, it predominantly does at points of entry 
but were unable to give an accurate percentage. Please provide an 
accurate percentage of cocaine entering at points of entry at the U.S.-
Mexico border in comparison to cocaine entering elsewhere along the 
border.
    Answer. It is important to distinguish between the seizure of a 
drug and the flow of the drug. Seizure data do not reflect the actual 
flow of drugs into the United States, however, it is the only flow-
related data that can be collected. Given the unknown amounts of drugs 
that are not seized, either at the border Ports of Entry (POEs) or 
between them, only an estimated picture of border drug flows is 
possible by using seizure data that is currently collected. 
Additionally, the data collected regarding seizures between POEs are 
not specifically limited to seizures made between POEs along the 
border, as seizures from Border Patrol checkpoints inside the United 
States are also included in this data.
    Accordingly, data from U.S. Customs and Border Protection (CBP) can 
be provided on drugs that are seized at and between all POEs by 
drug,\1\ but this is not the same as the amount of that drug crossing 
the border.
---------------------------------------------------------------------------
    \1\ https://www.cbp.gov/newsroom/stats/cbp-enforcement-statistics
---------------------------------------------------------------------------
    CBP seizure data show that for the period from FY 2016 to FY 2018:
    <bullet>  approximately 89 percent of border cocaine seizures were 
made at the POEs, and approximately 11 percent outside the POEs;
    <bullet>  approximately 86 percent of heroin seizures were made at 
the POEs, and approximately 14 percent were made outside the POEs;
    <bullet>  approximately 82 percent of methamphetamine seizures were 
made at the POEs, and approximately 18 percent were made outside the 
POEs; and
    <bullet>  approximately 86 percent of the fentanyl seizures were 
made at the POEs, and 14 percent were made outside the POEs.
    It also should be noted that the largest concentration of CBP 
personnel and detection technology is deployed to the POEs, so more 
drugs are able to be detected and interdicted at the POEs.

  Questions from Hon. Randy K. Weber, Sr., for Thomas W. Padden, U.S. 
    Interdiction Coordinator, Office of National Drug Control Policy

    Question 2. Following up from the hearing, when money is seized 
from vessels, does the money go back to the Coast Guard for investment 
in assets?
    Answer. USCG does not have forfeiture authority, so the proceeds of 
all their seizures, including currency seizures, are turned over for 
processing to law enforcement agencies with forfeiture authorities, 
such as the Drug Enforcement Administration (DEA), DHS Immigration and 
Customs Enforcement Homeland Security Investigations (HSI), or CBP. If 
the seized assets are connected to an ongoing DEA investigation, they 
are turned over to DEA for processing and deposit into the Department 
of Justice Assets Forfeiture Fund (AFF). The Attorney General is 
authorized to use AFF funds to finance expenses associated with the 
execution of asset forfeiture functions and, with specific limitations, 
certain general investigative costs. If the seized assets are not 
connected to an ongoing DEA investigation, then they are turned over to 
a DHS agency with forfeiture authority, such as HSI or CBP. Forfeitures 
processed by HSI or CBP are deposited into the Treasury Forfeiture Fund 
(TFF). Judicial forfeitures are deposited into the lead federal 
agency's corresponding forfeiture fund.
    The Department of the Treasury's Treasury Executive Office for 
Asset Forfeiture (TEOAF) administers the TFF. The TFF is the receipt 
account for deposit of non-tax forfeitures made pursuant to laws 
enforced or administered by its participating Treasury and Department 
of Homeland Security (DHS) agencies. DHS participating agencies include 
the U.S. Coast Guard (USCG), U.S. Immigration and Customs Enforcement, 
U.S. Customs and Border Protection (CBP), and U.S. Secret Service.
    The TFF is a special fund. Special funds are Federal fund accounts 
for receipts that are earmarked by law for a specific purpose. The 
enabling legislation for the TFF (31 U.S.C. 9705) sets out those 
purposes for which Treasury forfeiture revenue may be used. Among other 
things, TEOAF, as the administrator for the TFF, promotes the 
consistent and strategic use of asset forfeiture by law enforcement 
bureaus that participate in the Fund to disrupt and dismantle criminal 
enterprises.
    All forfeiture revenue deposited into the TFF composes the budget 
authority utilized to fund the costs of operating the forfeiture 
programs of Treasury and DHS law enforcement agencies. Funding is 
allocated based on priority needs, regardless of which agency 
contributed each specific forfeiture.


                                 [all]
                                    
</pre></body></html>
